<html>
<title> - EXPLORING THE U.S. ROLE IN CONSOLIDATING PEACE AND DEMOCRACY IN THE GREAT LAKES REGION</title>
<body><pre>[Senate Hearing 110-247]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-247
 
  EXPLORING THE U.S. ROLE IN CONSOLIDATING PEACE AND DEMOCRACY IN THE 
                           GREAT LAKES REGION

=======================================================================


                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

40-208 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman

BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Almquist, Hon. Katherine, Assistant Administrator, Bureau for 
  Africa, Agency for International Development, Washington, DC...    10
    Prepared statement...........................................    12
    ENOUGH Project Report submitted for the record...............    54
De Lorenzo, Mauro, resident fellow, Foreign and Defense Policy 
  Studies, American Enterprise Institute, Washington, DC.........    42
    Prepared statement...........................................    44
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Fitzcharles, Kevin, Country Director for Uganda, CARE, Kampala, 
  Uganda.........................................................    34
    Prepared statement...........................................    36
Frazer, Hon. Jendayi, Assistant Secretary for African Affairs, 
  Department of State, Washington, DC............................     3
    Prepared staement............................................     6
Smith, Gayle, senior fellow, Center for American Progress, 
  Washington, DC.................................................    28
    Prepared statement...........................................    30

                                 (iii)




  EXPLORING THE U.S. ROLE IN CONSOLIDATING PEACE AND DEMOCRACY IN THE 
                           GREAT LAKES REGION

                              ----------                              


                      WEDNESDAY, OCTOBER 24, 2007

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russ Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold and Bill Nelson.

 OPENING STATEMENT OF HON. RUSSELL D., FEINGOLD, U.S. SENATOR 
                         FROM WISCONSIN

    Senator Feingold. I'll call the committee to order. Good 
morning.
    Over the August recess, I traveled to the Democratic 
Republic of Congo and Uganda to better understand the complex 
challenges facing these two countries at this critical time. 
This hearing continues this learning process, with the aim of 
developing long-term, coordinated U.S. and international 
support for the negotiation and implementation of sustainable 
political agreements that will improve security, enhance and 
extend democracy, and create conditions for peace and 
prosperity in this strategically significant part of the world.
    This hearing coincides with the visits of President Kabila 
of the DRC and President Museveni of Uganda, to Washington, DC, 
and without overlooking the rest of the region, it is on these 
two countries that I would like to focus on, given the critical 
stages at which they both stand.
    In northern Uganda, two decades of violence between the 
Lord's Resistance Army and the Government of Uganda have forced 
an estimated 1.8 million people to seek refuge in squalid camps 
that lack access to basic resources, health care, and 
education. The Government of Southern Sudan has been hosting 
peace talks between delegations representing the Ugandan 
Government and the Lords Resistance Army (LRA) since July 2006, 
and, although slow and prone to disruption, those talks have 
improved security in the North and prompted renewed optimism 
for a legitimate and much-awaited peace.
    Meanwhile, the recent escalation of violence in the DRC's 
restive eastern provinces prompted more than 100,000 people to 
flee their homes last month alone, with rising insecurity 
preventing humanitarian agencies from reaching 150,000 
displaced civilians.
    Although not perfect, the current negotiations for northern 
Uganda are, in many ways, a model for the Congolese Government, 
as they indicate the potential of regionally led negotiations 
that are backed by the international community. While 
legitimate governments may be understandably reluctant to enter 
into negotiations with rebel groups, they should also take into 
account the possibility of securing a viable peace that 
addresses longstanding grievances and curtails heinous acts of 
violence.
    After numerous fits and starts, the current peace 
negotiations for northern Uganda appear to be moving in the 
right direction. Certainly, a number of core issues still need 
to be resolved, including justice, livelihood development, 
security, and the rule of law. But the Juba process remains the 
best hope to end this 20-year conflict. However, in light of 
the harsh rhetoric and deadlines we have seen in the past from 
the Ugandan Government, including President Museveni, regional 
and broader international support in the form of consistent and 
coordinated high-level engagement will be essential to keep 
this process on track.
    Across the border, the situation in eastern DRC is 
unfortunately moving in the reverse direction, with a 
significant deterioration since late August. Late last week saw 
a surge of militaristic rhetoric by the Congolese Government 
and these words may soon turn into action. Indeed, President 
Kabila has ruled out negotiating with renegade General Laurent 
Nkunda and, last week, ordered his troops to prepare to disarm 
rebels, ``by force, if necessary.'' The United States and other 
donors must send a strong signal that a more militarized policy 
is simply not acceptable.
    When I was in these countries recently, I visited camps for 
the internally displaced in both the eastern DRC and northern 
Uganda. The United States and others are funding the bulk of 
emergency assistance on which these people depend, and they are 
unquestionably grateful. But what they really want is peace. 
They want to be safe in their own homes, free to earn their own 
livelihoods, and supported by their government. I hope that 
this hearing will help generate ideas and commitments for 
greater U.S. contribution to the achievement of this vision.
    On our first panel will be Assistant Secretary of State for 
Africa, Jendayi Frazer, and USAID's Assistant Administrator for 
Africa, Katherine Almquist. They will discuss the 
administration's strategy for dealing with these countries, and 
also discuss the programs and resources the U.S. Government has 
in place to address the various challenges and contingencies 
facing this region.
    On the second panel of nongovernmental witnesses, we will 
hear from Gayle Smith, a senior fellow at the Center for 
American Progress and formerly the Senior Director for African 
Affairs at the National Security Council. We also get a from-
the-ground report from CARE's Uganda Country Director, Kevin 
Fitzcharles, as well as a regional perspective, from Mauro De 
Lorenzo, a resident fellow at the American Enterprise 
Institute.
    Thank you all for being here today and for contributing to 
this timely hearing on a collection of complex issues. I look 
forward to hearing your testimony and asking you some questions 
about how the United States can engage more actively and 
effectively to consolidate peace and democracy in this region.
    And, Ms. Frazer, seeing as you successfully got through the 
rain traffic in Washington right on time, you may deliver your 
statement.

   STATEMENT OF HON. JENDAYI FRAZER, ASSISTANT SECRETARY FOR 
      AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Frazer. Thank you, sir.
    Thank you, Chairman Feingold, for inviting me to testify 
here today on the situation in the African Great Lakes.
    I appreciate the concern and interest your travel to the 
region last August showed. We are keenly aware of the urgency 
of the situation in eastern Congo, including the potential 
impact of that situation on Uganda, Rwanda, and Burundi. I have 
a longer written statement, and ask that it be submitted for 
the record.
    Senator Feingold. Without objection.
    Ambassador Frazer. Thank you.
    Throughout this administration, we have been actively 
implementing a long-term strategy for lasting peace in Central 
Africa. Ending the conflict in the Democratic Republic of Congo 
has required the direct and sustained effort of President Bush 
and Secretary Rice to try to build a regional approach to that 
conflict, including President Bush's meeting in 2002 in New 
York with President Mbeki, bringing together Presidents Kabila 
and Kagame in many subsequent meetings, as well as many calls 
by Secretary Rice to regional leaders.
    Our efforts are focused on building democratic and 
prosperous countries to prevent future conflicts, countries 
with the capacity to protect the sovereignty of their own 
borders. And we are also continuing to focus on building 
democratic institutions and regional security mechanisms for 
conflict resolution in the region. Our challenges today must be 
considered in the context of how far we have come since 2001.
    Our political commitment and our partnership, especially 
with South Africa, were critical factors in affecting the 
withdrawal of all foreign occupying armies from the Congo. The 
Lusaka peace process, culminating in the Sun City Accord, 
provided a framework for the Congo's transition to democracy.
    We're also working multilaterally, taking the lead in the 
United Nations Security Council, and, of course, the United 
States is one of the largest contributors of the United Nations 
Mission to the Congo (MONUC). We have financed many of the 
mechanisms that promoted the success of the Sun City Accord.
    I, myself, went to Kinshasa to observe the first round of 
the national elections, and was a member of the Presidential 
delegation led by Secretary Chao to President Kabila's 
inauguration. And so, the first long-term strategy is, in fact, 
to build these democratic-capable states. And it was important 
to conflict resolution in the region for the Government of the 
Congo to be legitimized through democratic election.
    In terms of building regional security mechanisms the 
Tripartite Process is our effort to initiate confidence-
building mechanisms among the former Great Lakes belligerents. 
And we continue to pledge our lasting commitment to stability 
and good neighborly relations in the Great Lakes.
    Last month, ministers from Burundi, the Democratic Republic 
of Congo, Rwanda, and Uganda met, as a Tripartite Plus, with 
Burundi's participation, Joint Commission in Kampala. We have 
also facilitated the coming together of the Defense Ministers, 
the Chiefs of Defense staff, and the Intelligence Ministers of 
those four countries to try to again build this regional 
security mechanism and to establish greater confidence.
    When the ministers came together in Kampala, they 
reaffirmed their core mission to end the threat of regional 
peace and security from negative forces and agreed to redouble 
their efforts to achieve that objective. And, before going into 
more specific details, I'd like to talk very briefly about 
Burundi, Rwanda, and Uganda, in terms of the democratic 
countries.
    Our efforts in Burundi were key in facilitating the peace 
process. Following direct National Assembly elections on July 
4, 2005, Pierre Nkurunziza was elected President. Burundi's 
young democracy recently weathered a parliamentary crisis and 
overcame a break in negotiations with its one remaining major 
rebel group, the FNL. My deputy, James Swan, visited Burundi in 
September to underscore our commitment to the peace process and 
democratic reform, and I've met with the Burundian Foreign 
Minister many times, but, again, most recently on the margins 
of the U.N. General Assembly meeting last month.
    Rwanda has made enormous strides in overcoming the legacy 
of its devastating 1994 civil war and genocide. It has become a 
very reliable partner in the promotion and economic growth in 
central Africa, and an important contributor to African 
peacekeeping.
    The recent adoption of a law expanding the scope of 
political parties to operate, and reforms that address the 
judiciary's substantial backlog of genocide-related cases, are 
noteworthy positive developments. Our efforts to encourage 
dialog among Great Lakes neighbors has paid off in visits 
between senior officials, including a recent visit of a Rwandan 
Foreign Minister, Murigande, to Kinshasa, and Presidents Kagame 
and Kabila meeting on the margins of the U.N. General Assembly 
last month.
    In Uganda, progress toward peace in recent years has 
allowed hundreds of thousands of northerners to return to their 
homes. Not too long ago, the Lord's Resistance Army, or LRA, 
wreaked havoc on the North and forced millions of northern 
Ugandans to flee to IDP camps. Prospects for peace were bleak 
in this conflict, which lasted almost a generation.
    I am pleased that the Government of Uganda and the LRA have 
made significant progress in peace talks, and we have strongly 
supported this African-led effort in which the Government of 
Southern Sudan and former Mozambique President Chissano have 
played key roles. There is much to be done, but security is 
improved and over 400,000 people are returned home and more are 
poised to return--and so, there's been significant progress.
    We are committed to working to help the parties conclude 
the remaining agreements necessary when they resume talks in 
Juba in the coming weeks. My Senior Advisor for Conflict 
Resolution, Timothy Shortley, soon will attend those talks to 
ensure that our views are heard. We are pleased that the 
Government of Uganda has already taken advantage of the 
reduction in hostilities to launch its peace recovery and 
development plan designed to address the North's development 
needs in a systematic, coordinated manner.
    I went to Uganda in early September, and we look forward to 
continuing to work with President Museveni on these difficult 
issues.
    The Juba peace talks continue to provide the best 
opportunity for all parties involved to bring the 20-year 
conflict to an end, but the U.S. Government will not support an 
open-ended peace process that drags on indefinitely. And, for 
this reason, we look forward to the resumption of the peace 
talks in the coming days. And, in October 2005, after being 
forced out of northern Uganda and Southern Sudan, the LRA has 
relocated to Garamba Park, in eastern DRC, and we are pleased 
that the Congolese Government has also stated that the LRA is 
not welcome in Garamba Park and should not expect to stay there 
indefinitely.
    Congo, as well, has seen dramatic progress. The historic 
2006 elections, the first democratic election since 1960, 
represent the best chance in a generation to overcome a legacy 
of violence and malfeasance and rebuild a nation that has 
suffered 4 million deaths in the last 10 years.
    Because of the multitude of problems the people of the 
Congo face, and the sheer vastness of their country, a nation 
the size of Western Europe with 300 miles of paved road, it may 
be easy for us to lose sight of how far we have actually come.
    We are working with this new government, democratically 
elected by the people, to forge an effective partnership in our 
efforts to bring peace, stability, and democracy to Central 
Africa.
    Our short-term approach, or immediate approach, to the 
eastern Congo crisis focuses on four critical areas: Extending 
state capacity, including the ability for the Government of 
Sudan to secure its borders and to deliver services to its 
people, and to--most importantly--to protect civilians; 
supporting a common and more effective approach to security 
sector reform and demobilization activities and reintegration 
(DDRR), and training for the Congolese Armed Forces, FARDC; 
promoting intercommunal dialog and supporting authorities in 
eastern Congo to address local protection, social, and economic 
needs; and, finally, supporting Congolese U.N. and civil 
society efforts to protect vulnerable populations and end human 
rights abuses and crimes against humanity--in particular, the 
epidemic of sexual and gender-based violence. We're working 
very, very closely with the government and with MONUC in this 
area.
    I directed Mr. Shortley to lead our efforts to--in the 
persistent instability in the East, particularly dealing with 
the negative forces, the FDLR, LRA, and ADF. He is now also 
working intensely to resolve the crisis in North Kivu. He has 
met with Congolese officials, MONUC political and military 
leadership, and European partners in the Congo, New York, and 
Washington.
    Following interagency discussions, we are implementing a 
plan to promote stability on a variety of fronts. In addition, 
I have directed Embassy Kinshasa to establish a field presence 
in Goma. I hope USAID team on the ground will increase our 
visibility and effectiveness and allow us to participate as 
international observers to the Government of Congo and MONUC's 
efforts to disarm militias and negative forces in the East.
    As you know, Congolese President Kabila is visiting the 
United States this week, and will meet with President Bush on 
Friday. Our goal is for this meeting to advance the creation of 
a peaceful, democratic, and prosperous Central Africa that can 
be an engine of growth for the continent.
    In conclusion, we must recognize the tremendous progress 
made in the Great Lakes in the last 7 years, as well as the 
serious challenges that remain. Active U.S. diplomacy addresses 
regional aspects of the residual conflicts, as well as internal 
domestic and communal factors. We also have a robust assistance 
program in the region, and we will continue to work closely 
with South Africa, with the immediate neighbors, with the 
United Nations and our European partners to address and end the 
crisis in eastern Congo.
    I am pleased to respond to your questions.
    [The prepared statement of Ambassador Frazer follows:]

  Prepared Statement of Hon. Jendayi E. Frazer, Assistant Secretary, 
     Bureau of African Affairs, Department of State, Washington, DC

    I would like to thank you, Chairman Feingold and members of the 
committee for inviting me to testify here today on the situation in the 
African Great Lakes. Mr. Chairman, I appreciate the concern and 
interest you personally have shown by your travel to the region last 
August. I share your concern that the continuing instability and the 
recent spike in violence in parts of eastern Democratic Republic of 
Congo has forced hundreds of thousands of Congolese from their homes 
and many of them to seek refuge in neighboring states. We are keenly 
aware of the urgency of the situation in eastern Congo, including the 
potential impact of that situation on Uganda, Rwanda, and Burundi. I 
would like to brief you on our efforts to resolve it, including 
intensive engagement with key regional leaders in the field in New 
York, during the recent General Debate of United National General 
Assembly and upcoming discussions here in Washington.
    We have a good story to tell. Throughout this administration, we 
have been actively implementing a strategy for lasting peace in Central 
Africa. When we started our work, more than six national armies were 
engaged in a regional war waged on the territory of the Democratic 
Republic of Congo, whose population became its greatest victims. Ending 
that conflict required the direct and sustained effort of President 
Bush and Secretary Rice, including the President's meeting in 2002 in 
New York with Presidents Kabila and Kagame, not to mention numerous 
calls by the Secretary to all of the regional leaders involved in or 
influential to ending the conflict. We still face many grave challenges 
in the region today, but I believe today challenges must be considered 
in the context of how far we have come in our efforts to promote 
lasting stability in Central Africa.
    The United States is committed to end the conflict in northern 
Uganda through the Juba peace process and to bring real demonstrable 
benefits of peace to the people of Uganda.
                          regional background
    The road from the regional conflict of 1998-2002 to today is 
important when we look at the situation in Central Africa. The United 
States played a key role in the diplomacy that secured the withdrawal 
of foreign armies from the Democratic Republic of Congo to the current 
situation in Central Africa. The Lusaka Peace Process, culminating in 
the Global and Inclusive Agreement--the ``Sun City Accord''--provided a 
framework for the Congo's transition to democracy. Throughout this 
process, the United States played a hands-on role. We urged the parties 
to the peace table and coaxed them to stay there. Our political 
commitment and our prestige were critical factors in effecting the 
withdrawal of all foreign occupying armies from the Congo. We took the 
lead in the United Nations Security Council, and, of course, as one of 
the largest contributors to the United Nations Mission to the Congo 
(MONUC). We financed the Joint Verification Commission established 
under the Lusaka Accord and the Third-Party Verification Mechanism of 
the 2002 Pretoria Agreement. We provided the initial support to launch 
the Congolese Independent Election Commission. I went to Kinshasa to 
observe both rounds of national elections and was a member of the 
Presidential delegation led by Secretary Chao to President Kabila's 
inauguration.
    In launching the Tripartite Process, we initiated confidence-
building measures among the former Great Lakes belligerents, and we 
pledged our lasting commitment to stability and good neighborly 
relations in the Great Lakes. Relations among the neighbors have come a 
long way since we organized the first meeting in 2004. Recent visits 
and meetings among regional leaders from Congo, Rwanda, and Uganda, 
undertaken without the facilitation of the United States, are a 
testament to our success in initiating lasting dialog among former 
enemies.
    Ministers from Burundi, the Democratic Republic of Congo, Rwanda, 
and Uganda met as the Tripartite Plus Joint Commission in Kampala, 
Uganda most recently on September 15-17. As usual, the United States 
Government served as the facilitator.
    The Ministers reaffirmed the core mission of the Tripartite Plus to 
end the threat to regional peace and security from Negative Forces, and 
agreed to redouble efforts to achieve that objective. They agreed on 
the importance of accelerating integration of Congolese Armed Forces in 
order that they may act against Negative Forces and assure the security 
of the local population. Member delegations appealed to the United 
Nations Mission to the Democratic Republic of the Congo (MONUC) to 
intensify efforts to work with Congolese Armed Forces (FARDC) to 
eliminate the Negative Forces through full application of its mandate.
    All delegations expressed concern about deteriorating security 
conditions in eastern Congo, in particular the destabilizing roles of 
former General Laurent Nkunda and the ex-FAR/Interahamwe. All 
delegations committed to support the DRC in its efforts to end the 
violence and reduce the regional security threat of these and other 
Negative Forces in eastern Congo.
    We welcome the increasing number of high-level bilateral exchanges 
among Tripartite Plus member countries. These include the September 7-8 
summit between DRC President Joseph Kabila and Ugandan President Yoweri 
Museveni, the September 3-4 visit by Rwandan Minister of Foreign 
Affairs and Cooperation Dr. Charles Murigande to Kinshasa to meet with 
his counterpart, the DRC Minister of State for Foreign Affairs Antipas 
Mbusa Nyamwisi, and meetings of senior officials at many regional fora, 
including the International Conference on the Great Lakes Region 
(ICGLR), the East African Community (EAC), and the Economic Community 
of Great Lakes Countries (CEPGL).
    I would like to note that The Great Lakes Contact Group, whose 
members include the European Union (EU), France, the United Kingdom, 
Belgium and the Netherlands and the United States, was created to 
support Tripartite Process efforts to normalize regional relations and 
address the threat of negative forces. We will host the next meeting of 
the Contact Group in Washington on November 16.
    I would also emphasize that our efforts, regionally and through a 
range of bilateral assistance programs, are focused on building 
inclusive, democratic, and economically successful countries in the 
region so as to prevent future conflicts in the region as well. Even as 
we work urgently to address the legacies of past conflicts, we continue 
to give our attention to building democratic institutions and equitable 
economic growth.
    Now, let me speak briefly about Burundi and Rwanda before focusing 
my remarks on Uganda and the Congo.
                                burundi
    Our efforts were key in facilitating the peace process in Burundi. 
There were National Assembly direct elections on July 4, 2005, and 
Pierre Nkurunziza was elected as President of Burundi on August 19, 
2005. Burundi's young democracy recently weathered a parliamentary 
crisis and overcame a break in negotiations with its one remaining 
major rebel group. My Deputy James Swan visited Burundi in September to 
underscore our commitment to the peace process and democratic reform. I 
met with the Burundian Foreign Minister several weeks ago in New York 
on the margins of the General Assembly. We welcomed the newly 
democratic Burundi into the Tripartite Commission, renaming it the 
Tripartite Plus Joint Commission, in September 2005, and have been 
encouraged by Burundi's performance as a Great Lakes neighbor. As a 
post-conflict democracy, Burundi is already taking on a larger role in 
the international community by offering to contribute troops to African 
Union peacekeeping efforts in Somalia.
                                 rwanda
    Rwanda has become a very reliable partner in the promotion of 
economic growth in Central Africa and an important contributor to 
African peacekeeping. Rwanda has made enormous strides in overcoming 
the legacy of its devastating 1994 civil war and genocide. Our 
relationship has helped Rwanda to enhance its security through regional 
cooperation. We work consistently with the Government of Rwanda to 
encourage balance among its goals of internal security, democracy, 
protection of human rights, and economic development. We are encouraged 
by Rwanda's economic success and take pride in Rwanda's commitment to 
peacekeeping in Darfur. Assisting the Rwandan Government to bolster its 
ability to rule justly and fairly, to provide basic services for its 
people, and to foster economic growth are key U.S. priorities. We 
support good governance programs and programs that strengthen civil 
society. The recent adoption of a law expanding the scope for political 
parties to operate and reforms that address the judiciary's substantial 
backlog of genocide-
related cases, are noteworthy positive developments. Our Embassy 
continues to engage the Government to build a more constructive 
relationship with the media. In promoting regional security, our 
efforts to encourage dialogue among Great Lakes neighbors have paid off 
in visits between senior officials, including a recent visit of the 
Rwandan Foreign Minister to Kinshasa. We continue to encourage Rwanda 
to play a positive role in regional efforts to resolve peacefully the 
situation in North Kivu. Last week Deputy U.S. Trade Representative 
Karan K. Bhatia hosted the second high-level meeting under the United 
States-Rwanda Trade and Investment Framework Agreement.
                                 uganda
    In Uganda, progress toward peace in recent years has allowed 
hundreds of thousands of northerners to return to their homes. Not too 
long ago, the Lord's Resistance Army, or LRA, wreaked havoc on the 
North, and forced millions of northern Ugandans to flee to internally 
displaced persons camps for peace and security. Prospects for peace 
were bleak in this conflict, which lasted almost a generation.
    I am pleased to be able to report that the Government of Uganda and 
the LRA have made significant progress in peace talks. The United 
States has strongly supported this African-led effort, in which the 
Government of Southern Sudan and former Mozambican President Chissano 
have played key roles. There is much to be done, but as security has 
improved under the cessation of hostilities, 400,000 formerly displaced 
people have now returned home. In addition, more are poised to return. 
It would be difficult to overestimate the significance of this 
development for the people of Uganda, and for regional stability in 
general. Uganda's ``peace dividend'' is most visible in the North, 
where my newly appointed Senior Advisor for Conflict Resolution, 
Timothy Shortley, recently traveled. Homes are being rebuilt, commerce 
is starting up, security is present, and hope is evident.
    We are not resting. We are committed to working to help the parties 
conclude the remaining agreements necessary when they resume talks in 
Juba in the coming weeks. My Senior Advisor for Conflict, Timothy 
Shortley, soon will attend the talks in Juba to ensure that our views 
are taken into account. We are pleased that the Government of Uganda is 
already taking advantage of the reduction in hostilities to launch the 
Peace, Recovery, and Development Plan, which is designed to address the 
North's development needs in a systematic, coordinated manner. The 
Government of Uganda's pledge to provide 30 percent of all costs 
associated with the reconstruction of northern Uganda is a substantial 
commitment. But let there be no misunderstanding: The northern Uganda 
peace process has made an unmistakable difference to the lives and 
prospects for over a million people. Uganda is a different place than 
it was only a few years ago. Securing the gains through the successful 
and timely resolution of the talks and ongoing support for the 
reconstruction process is absolutely crucial.
    The United States has been actively engaged in promoting this 
progress. I personally traveled to Uganda in early September, and we 
look forward to welcoming President Museveni for a meeting with 
President Bush on October 30 to discuss northern Uganda, peace, 
reconstruction, and development issues, and other bilateral and 
regional topics.
    Fighting in northern Uganda between the Ugandan Government and the 
LRA has continued for more than 20 years. The LRA terrorized northern 
Ugandans, forcing as many as 1.8 million to live in internally 
displaced persons camps for their own protection. Since June 2006, 
however, the Government of Southern Sudan has been brokering peace 
talks between the Ugandan Government and the LRA. In late August 2006, 
the parties agreed to a ``cessation of hostilities'' to move toward a 
cease-fire agreement. There have been no LRA attacks in Uganda for more 
than a year. In 2005, the International Criminal Court indicted five of 
the top LRA leaders for war crimes, one of whom was subsequently killed 
in a Ugandan military operation.
    The Juba peace talks between the Ugandan Government and the Lord's 
Resistance Army are scheduled to resume in early November in Juba, 
Southern Sudan. The talks, which have faced a number of starts and 
stops in the past year will resume shortly and continue to provide the 
best opportunity for all parties involved to bring the 20-year conflict 
to an end. I have stated repeatedly that the U.S. Government will not 
support an open-ended peace process, and for this reason, we look 
forward to the resumption of the peace talks in the coming days. The 
U.S. Government supports fully the African-led negotiating team, and we 
will continue to provide them with encouragement and support. We are 
fully confident in the negotiation team and expect it to continue to 
make progress. We will continue to stress, to all involved, that their 
commitment to the peace process should be full-time.
    In October 2005, after being forced out of northern Uganda and 
Southern Sudan, the LRA relocated to Garamba Park in eastern DRC. The 
Congolese Government has stated that the LRA is not welcome in Garamba 
Park and should not expect to stay there indefinitely. Cooperation 
between regional leaders has been, and will continue to be, a crucial 
element of ending the conflict.
    In northern Uganda, there is regular interaction between U.S. 
Embassy officials, U.S. Government officials and key participants from 
the Ugandan Government, African observers, donors, and Government of 
Southern Sudan officials. The U.S. Government has provided expertise 
and financial support to negotiators from the Government of Uganda, 
including providing funding for nationwide consultations on 
accountability and reconciliation. The U.S. Government has worked with 
the U.N. Special Envoy for LRA-Affected Areas, Joachim Chissano, 
African observers, and the Ugandan Government to coordinate public 
messages in support of the peace process. At the request of the Ugandan 
Government and the Special Envoy, the U.S. Government issued a 
statement in February expressing support for the Juba venue and 
Government of Southern Sudan mediator Riek Machar, which helped keep 
the talks on track.
    In August, my Senior Advisor Shortley traveled to Uganda and met 
with government officials, local leaders, and displaced persons. His 
trip focused on the Juba talks, the return of displaced people to their 
areas of origin, and ongoing reconciliation and recovery efforts. He 
worked to help the parties minimize gaps between their positions, to 
maximize opportunities in the Juba Peace Process, and to encourage the 
Ugandan Government to launch its Peace, Recovery, and Development plan. 
He emphasized the importance of establishing a clear and reasonable 
timetable for the peace process, and the need to restructure assistance 
programs to address the needs of people who are returning home. In 
September, he also accompanied me on my trip to Uganda. We discussed 
the peace process with Ugandan President Museveni and stressed the need 
for a speedy peace agreement. Our visits helped explain U.S. policy and 
our engagement in the region. We were impressed with how the situation 
is improving.
    Our goals and efforts in northern Uganda are to support the 
African-led peace process between the Ugandan Government and the Lord's 
Resistance Army; ease the effects of the conflict on people in the 
North; ensure the people of northern Uganda receive the development 
that conflict denied them for a generation; and emphasize to all 
participants that the peace process is not open-ended.
                      democratic republic of congo
    In Congo, as well, there has been dramatic progress in recent 
years. Congo's historic 2006 elections, the first democratic elections 
since 1960, represent the best chance in a generation to overcome a 
legacy of violence and malfeasance and rebuild a nation that has 
suffered 4 million deaths in the last 10 years.
    Because of the multitude of problems the people of the Congo face 
and the sheer vastness of their country--a nation the size of Western 
Europe with no more than 300 miles of paved road--it may be easy for us 
to lose sight of how far we have come. Indeed, with the Congo we have a 
great distance yet to go, and it is vital that we remain fully engaged 
in assisting the Congolese and their international partners in 
addressing the enormous challenges that remain. What is new, and what 
we--along with many other friends of Congo--have helped make possible, 
is a legitimate government democratically elected by the people. We are 
hopeful that this government will be an effective partner in our 
efforts to bring peace, stability, and democracy to Central Africa, and 
a variety of USAID and DRL assistance programs have the goal of 
assisting in this process.
    In order to respond to the current humanitarian and security crisis 
in eastern Congo, I directed Mr. Shortley to take the lead in expanding 
and intensifying implementation of our strategy to resolve the crisis 
in North Kivu. He has met with government officials, U.N. Organization 
Mission to DRC (MONUC) political and military leadership, and European 
partners in the Congo, New York, and Washington. Following interagency 
discussions, we are implementing a plan to promote the extension of 
state authority and intercommunal dialog, expand protection efforts for 
displaced persons and other vulnerable citizens, support the 
accelerated reintegration of demobilized combatants, and expand U.S 
presence in the East. We are also expanding our efforts to train 
Congolese military to uphold human rights and conduct disciplined and 
effective security operations. This training will underpin diplomatic 
efforts in the East to neutralize renegade military units and foreign 
armed groups. Mr. Shortley is departing Friday to return to the DRC 
where he will meet with senior government officials and travel to the 
East with MONUC to identify next steps in our diplomatic efforts to 
bring peace, stability, and justice to eastern DRC. He will continue on 
to Rwanda to discuss efforts to neutralize the ex-FAR and Interhamwe.
    To accelerate this transformation, at my direction, Embassy 
Kinshasa is in the process establishing a field presence in Goma. State 
and USAID personnel are expected to begin the staffing process. The 
presence of this team on the ground will increase our visibility and 
effectiveness. It will also provide a staffing level that will allow us 
to participate as international observers to the GDRC and UN/MONUC's 
efforts to disarm militias and negative forces in the East. Our 
approach in the East focuses on four critical areas:

  <bullet> Extending state authority by strengthening civilian 
        institutions through the decentralization process and preparing 
        for local elections in 2008.
  <bullet> Supporting a common and more effective approach to Security 
        Sector Reform (SSR) and DDRRR activities, and simultaneously 
        supporting specialized security training for the FARDC (e.g., 
        operational training of the FARDC integrated brigades).
  <bullet> Promoting intercommunal conflict resolution and supporting 
        provincial and local authorities in eastern Congo to address 
        the protection, social, and economic needs of the population.
  <bullet> Supporting Congolese, U.N., and civil society efforts to 
        protect vulnerable populations and end impunity, human rights 
        abuses, and crimes against humanity in eastern DRC, in 
        particular the epidemic of sexual- and gender-based violence.

    Congolese President Kabila is visiting the United States this week 
and will meet with the President on Friday. Ugandan President Museveni 
will be here next week. Our goal is for these meetings to advance the 
creation of a peaceful, democratic and prosperous Central Africa that 
can be an engine of growth for the continent.
                               conclusion
    In conclusion, we must recognize the tremendous progress made in 
the Great Lakes in recent years as well as the serious challenges that 
remain. Active U.S. diplomacy addresses regional aspects of the 
residual conflicts as well as internal domestic and communal factors. 
We also have a robust assistance progam in the region, which my 
colleague from USAID will now describe.
    Thank you for allowing me to testify before you about the critical 
issued facing the Great Lakes.

    Senator Feingold. Thank you very much, Madam Secretary, for 
your testimony.
    And now we will go to Ms. Almquist.

STATEMENT OF HON. KATHERINE ALMQUIST, ASSISTANT ADMINISTRATOR, 
   BUREAU FOR AFRICA, AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Ms. Almquist. Thank you, Chairman Feingold. I appreciate 
the opportunity to appear before you today to discuss USAID's 
contribution to consolidating peace and democracy in the Great 
Lakes region.
    My testimony will add to that of Assistant Secretary 
Frazer, who has provided the subcommittee information on the 
USG strategy and considerable contribution to the consolidation 
of peace and democracy in the Great Lakes.
    The countries of the Great Lakes region in Africa are 
linked by ecological landscapes that contain some of the most 
important biodiversity in the world, and by bountiful and 
lucrative natural resources that fuel economy and trade, but 
also by militias that owe allegiance to ethnic groups that 
transcend national boundaries, and by refugees in IDPs who have 
sometimes traveled hundreds and thousands of miles across 
borders to flee violence.
    As history has shown, these linkages ensure that violence 
in one country is not contained by borders and will spread to 
engulf all or part of the region if not stopped. Our strategy 
to address fragility in the Great Lakes takes into account this 
regional dynamic and seeks to leverage the resources we have 
available to achieve lasting peace and stability.
    Given the current importance of the events in northern 
Uganda and eastern Congo, I will focus the majority of my 
remarks on these two countries, and request that my longer 
written testimony be included in the record.
    The cessation of LRA attacks in northern Uganda more than a 
year ago, and ongoing peace negotiations between the Government 
of Uganda and the LRA, have encouraged IDPs to move home, or 
closer to home. More than 920,000 IDPs in northern Uganda have 
voluntarily left the camps. If peace negotiations make further 
progress, we anticipate a considerable increase in IDP returns, 
especially this November and December, because it is during 
these months that grasses used to build thatched roofs mature.
    Anticipating and responding to improving conditions, USAID 
has shifted increasing amounts of its resources to the North. 
The amount of USAID's resources allocated to the North has 
increased steadily from $77 million in 2005, to $84 million in 
2006, and to $106 million in 2007. Over half of this assistance 
in 2007 is long-term development assistance.
    Further evidence of USAID's commitment to the 
reconstruction and reintegration of the North is the opening of 
our field office in Gulu in June 2007.
    Building upon these successes, and recognizing the enormity 
of the challenge ahead for northern Uganda, USAID is committed 
to working with the Government of Uganda to bring solid and 
lasting stability to the North. USAID's strategy for northern 
Uganda includes support for the Government of Uganda's national 
Peace, Recovery, and Development Plan for northern Uganda, or 
the PDRP. The first objective of the PRDP is to consolidate 
state authority. To support this objective, USAID is funding 
programs to increase the Ugandan Government's capacity at the 
local level, including the ability to deliver services to its 
people.
    The second objective is to rebuild and empower communities, 
which USAID is supporting through its health and education 
programs.
    The third objective is to revitalize the economy, which 
USAID is supporting through livelihoods and agriculture 
programs that will reach over 60 percent of all people in north 
and central Uganda.
    The fourth objective of the PRDP is peace-building and 
reconciliation, which USAID is supporting through radio 
programs to inform northerners about the peace process and 
assistance available in return areas, conflict resolution, and 
reintegration of former combatants.
    Now turning to eastern Congo, recognizing that eastern 
Congo's continued insecurity and weak governance is 
destabilizing for the region and threatens to undermine the 
progress being made in the DRC as a whole, USAID has also 
increased its focus on both humanitarian and development 
resources to the East as part of a broader stabilization 
effort.
    In fiscal years 2006 and 2007, USAID has provided an 
average of over $120 million in development and humanitarian 
assistance to the DRC, with an average of $80 million per year 
allocated to the East. Over 25 percent of this assistance to 
the East is longer term development assistance.
    USAID's strategy is based upon the premise that, to 
contribute to stability in Central Africa, the newly elected 
government must uphold the rule of law as embodied in the 
country's new constitution, and deliver tangible results and 
services to the Congolese people. Security-sector reform and 
disarmament, demobilization, and reintegration programs for 
former combatants, and livelihoods are a critical part of this 
development process. Gender-based violence is also a critical 
component of this strategy, with USAID programs providing 
medical care, psychosocial support, and legal referral, where 
appropriate.
    USAID is using the additional $15 million in supplemental 
funds provided by the Congress to reinforce our current 
strategy to fund timely and critical interventions to stabilize 
the eastern Congo. Supplemental funding will focus on fostering 
dialog and agreements among key leaders and reducing conflict, 
particularly in North and South Kivu. This dialog will be 
bolstered by ``stabilization centers'' in eastern Congo that 
will strengthen existing democracy centers USAID established in 
2004. Supplemental funding is also being allocated for 
reintegration programs for ex-combatants. These programs will 
provide livelihood options, equipment, and training to willing 
former arms carriers or combatants that voluntarily put down 
their guns. This program is already taking advantage of a 
fragile window of stability in Ituri and northern Katanga. 
That's also the worst militia fighting and population 
displacements in the Congo, and will move to North Kivu as soon 
as there is security and the combatants have entered the 
demobilization process.
    The Democratic Republic of Congo is a potential leader in 
sub-Saharan Africa because of its central location and vast 
array of natural resources. USAID has committee significant 
resources and achieved significant results in the Congo, and 
will continue to support the broader USG goals of peace and 
stability in this country and in the region.
    Thank you.
    [The prepared statement of Ms. Almquist follows:]

      Prepared Statement of Hon. Katherine J. Almquist, Assistant 
   Administrator for Africa, United States Agency for International 
                      Development, Washington, DC

    Chairman Feingold, Ranking Member Sununu, and other members of the 
Subcommittee on African Affairs, I appreciate the opportunity to appear 
before you today to discuss USAID's contribution to consolidating peace 
and democracy in the Great Lakes region. My testimony today will add to 
that of Assistant Secretary Frazer who has provided the subcommittee 
information on the USG strategy and considerable contribution to the 
consolidation of peace and democracy in the Great Lakes region. I will 
provide you more detail on USAID's support to this goal, focusing on 
humanitarian assistance, reconstruction, reintegration, and development 
assistance in the Great Lakes region.
    The countries of the Great Lakes region in Africa are linked by 
ecological landscapes that contain some of the most important 
biodiversity in the world, by bountiful and lucrative natural resources 
that fuel economy and trade, by refugees who have traveled hundreds and 
thousands of miles across borders to flee violence, and by militias 
that owe allegiance to ethnic groups that transcend national 
boundaries. As history has shown, these linkages ensure that violence 
in one country is not contained by borders and will spread to engulf 
all or part of the region if not stopped. Our strategy to address 
fragility in the Great Lakes takes into account its regional dynamic 
and seeks to leverage the resources we have available to bring about 
peace and stability. Given the current importance of events in northern 
Uganda and eastern Congo, I will focus the majority of my remarks on 
these two countries.
                            northern uganda
    Since 1986, protracted conflict between the Government of Uganda 
(GOU) and the Lord's Resistance Army (LRA) has created a complex 
humanitarian situation in northern Uganda. This conflict has been 
marked by violent attacks against civilians, extensive displacement, 
and the abduction of children for forced conscription, labor, and 
sexual servitude. Prolonged conflict has had a dramatically destructive 
effect on the lives of virtually all citizens of northern Uganda and 
produced the fourth largest population of internally displaced persons 
(IDPs) in the world. At the height of the conflict in 2004, there were 
almost 1.8 million IDPs in northern Uganda. Some of these people have 
not returned home for 10 to 20 years. Some, born in camps, have never 
lived in their parents' homelands.
    The cessation of LRA attacks more than a year ago, and ongoing 
peace negotiations between the GOU and LRA have encouraged IDPs to move 
home, or closer to home. More than 920,000 IDPs in northern Uganda have 
voluntarily left the camps. If peace negotiations make further 
progress, we anticipate a considerable increase in IDP returns, 
especially this November and December, because it is during these 
months that grasses used to build and thatch roofs mature.
    The possibility of reliable, long-term security has set the stage 
for an eventual end to the extreme suffering of residents of north-
central Uganda, where despite gradual increases in food production and 
improved harvests, approximately 2.1 million people remain food 
insecure, and IDPs continue to depend upon food aid for nearly 50 
percent of their nutritional requirements.\1\ The enormity of this 
challenge cannot be underestimated. Reintegration and recovery will be 
taking place in a region that, according to President Museveni, ``has 
consistently fallen behind the rest of the country within the realm of 
human development,'' and where ``access to basic services is poor by 
national standards,'' resulting in a pervasive sense of alienation in 
the region. Sustainable reintegration and recovery will occur neither 
quickly nor easily.
---------------------------------------------------------------------------
    \1\ FEWS NET, August 2007.
---------------------------------------------------------------------------
    Anticipating and responding to improving security conditions, USAID 
has shifted increasing amounts of its resources to the North. In 2007, 
USAID provided $106 million in assistance to northern Uganda, and a 
similar amount is intended to assist the North this year in support of 
the GOU's Peace Recovery and Development Plan (PRDP), which was 
released earlier this month. The amount of USAID's resources allocated 
to the North has increased steadily from $77 million in 2005 to $84 
million in 2006, and $106 million in 2007. Over half of this assistance 
is long-term development assistance. Further evidence of USAID's 
commitment to the reconstruction and reintegration of the North is the 
opening of our field office in Gulu in June 2007. This office has 
already improved relationships with local government officials and 
community and religious leaders, and enables our team to better respond 
to northern Uganda's needs with timely and flexible programs. USAID 
Uganda, USAID Africa Bureau, and USAID DCHA Bureau have begun drafting 
a framework for transition from emergency assistance to recovery and 
development assistance. The goal is to ensure that proper resources are 
available to meet the changing conditions in northern Uganda. As needs 
shift from emergency care to programs that target recovery USAID will 
work to meet the needs as they arise with appropriate funding to 
appropriate partners to support sustainable returns.
    Before discussing our current programs and preparations for 
significant IDP return and reintegration, I will briefly review USAID's 
history in Uganda, and then highlight the success of USAID's programs 
to date in northern Uganda.
USAID's History in Uganda
    USAID has been providing assistance to Uganda since 1961, working 
hand in hand with partners in government and nongovernment sectors. In 
the 1960s, USAID programs focused on alleviating poverty, building the 
newly independent country, and helping to jump start its economy. More 
specifically, USAID programs worked to increase agricultural 
productivity, secondary school enrollment, and training of Africans to 
assume leadership positions in public service. In 1973, USAID suspended 
assistance due to the political and human rights problems associated 
with the dictatorship of Idi Amin.
    In 1981, USAID reestablished its presence in Uganda after an 8-year 
hiatus. USAID/Uganda's 1981 interim strategy gave priority to short-
term relief, recovery, and reconciliation issues. During the 1980s and 
1990s, USAID's longer term development programs accomplished 
significant success in southern regions, in partnership with the GOU. 
USAID programs focused on rebuilding the economy; providing support for 
health programs, especially those focused on HIV/AIDS, and malaria; and 
basic education. Our programs have also provided support for 
strengthening democracy and governance, with a particular focus on 
building political party capacity and supporting decentralization. 
During this time, we also provided humanitarian assistance to meet the 
needs of vulnerable populations affected by conflict, especially in 
northern Uganda. In 2005, because of new dialogue between the GOU and 
LRA that inspired hope for peace, preceded by a sharp increase in the 
number of IDPs the year before, USAID significantly increased both 
development programs and humanitarian assistance. These programs are 
now assisting in the recovery and reintegration of IDPs and increasing 
stability in the North.
Results Achieved in Northern Uganda\2\
    USAID's programs directly supported the Juba peace process through 
assistance to the GOU for the planning, design, and implementation of 
national consultations on accountability and reconciliation, a critical 
element of the on-going peace negotiations in Juba. Addressing the 
strong need for reconciliation among the Acholi population, USAID's 
programs provided essential services to 23,646 night commuters and 
survivors of abduction, enrolled 13,221 formerly abducted children in 
school or vocational training, and assisted 361 returnees (including 
150 women) to live and work side by side with community members in 14 
IDP camps in Gulu and Kitgum districts. Our programming supported 53 
traditional cleansing ceremonies, in addition to holding 180 peace 
committees and the resolution of 2,537 local disputes using dialogue, 
mediation, agreements, and legal referrals. Our programs also 
facilitated 12 local radio programs carrying messages fostering intra-
Acholi reconciliation.
---------------------------------------------------------------------------
    \2\ For the last 18 months.
---------------------------------------------------------------------------
    With market and agricultural infrastructure destroyed throughout 
much of the North, food assistance is critical during the return 
process. In FY 2007, USAID provided over 64,000 MT of emergency food 
targeting 270,000 returnees in Gulu, Lira, and Pader districts, making 
the United States the largest contributor to the World Food Program in 
Uganda. To support the return process, USAID provided 270,000 
resettlement packages of 3-month rations to IDPs returning home.
    Improving health and education services is one of the most critical 
needs for IDPs as they transition to self-sufficiency. USAID protected 
371,846 people through Indoor Residual Spraying to prevent malaria and 
distributed 78,039 insecticide treated nets. USAID's robust HIV/AIDS 
program has provided voluntary counseling/testing for HIV at 158 sites 
to over 140,000 people, assisted to prevent over 1,200 cases of mother-
to-child transmissions of HIV, provided nearly 10,000 people with life-
saving antiretroviral therapy and reached over 110,000 youth with HIV 
prevention messages in northern Uganda. These programs were implemented 
in coordination with our partners in the Department of Health and Human 
Services (HHS). In addition, USAID trained over 8,000 teachers, in 
1,762 primary schools across northern Uganda in improved student 
counseling and psychosocial support for war victims.
    IDPs have cited water availability in areas of origin as a 
prominent factor influencing returns to home villages. As of August 
2007, USAID and other humanitarian partners have increased the supply 
of potable water to IDP camps by 50 percent \3\ since the height of the 
crisis. USAID reached more than 570,000 northerners with programs to 
improve water, sanitation, and hygiene. These programs include drilling 
and rehabilitating boreholes, installing water tanks and taps, 
constructing latrines and hand-washing facilities, and distributing 
hygiene kits both at IDP camps and in return areas.
---------------------------------------------------------------------------
    \3\ According to OCHA.
---------------------------------------------------------------------------
    Helping displaced people regain their livelihoods and their ability 
to support themselves and feed their families is critical to recovery 
in northern Uganda. USAID provided agriculture and food security 
assistance to nearly 800,000 people in northern Uganda including 
training, seed and agricultural inputs, and land tillage to increase 
land area for cultivation. USAID has also funded road rehabilitation to 
increase access to markets and to clear roads to villages that have 
been deserted for years, in some case for decades. Opening up these 
abandoned roads will not only enable IDPs to go home, but will also 
ensure access for the police to provide security to the area. USAID 
also provided livelihoods assistance including income-generating 
activities for returnees.
    USAID is also working to promote commercial high value agriculture 
that supports small holders. USAID's programs supported a Ugandan 
company to procure 32,000 tons of sunflowers with a farm-gate value of 
$7 million mostly from small-holder farmers in Lira, Apac and Masindi. 
With these inputs, the programs launched four sunflower producer 
Savings & Credit Cooperatives in Lira and Apac districts with a total 
membership of 1,840 and combined assets of $9,500.00. Our programs 
worked to educate over 40,000 Ugandans in conflict-affected districts 
in a national savings mobilization campaign and assisted 12,000 small 
holders to open up their land for organic cotton production, which 
promises a guaranteed price and market through a public-private 
partnership with U.S. cotton company Dunavant. Recognizing the 
important economic, environmental, and cultural relationship between 
northern Uganda and Southern Sudan, USAID established three cross-
border Conservation Landscapes for Peace with the Government of 
Southern Sudan.
    Other important successes in northern Uganda facilitated by USAID 
include the dissemination of voter education messages, public dialogues 
and candidate debates to millions of citizens in IDP camps in the 
leadup to the February 2006 Presidential and Parliamentary elections. 
USAID also supported radio programming to increase information about 
return conditions and available assistance in areas to which IDPs were 
returning. USAID worked with the GOU to increase budget flexibility to 
meet the unique needs of displaced populations. As a result, local 
governments can now allocate up to 50 percent of their expenditures to 
locally determined projects, as compared with 10 percent in the rest of 
the country. Importantly, USAID developed and rolled out software to 
improve effective budget management, public expenditure tracking, and 
local government procurement, which will be particularly important for 
the success of the GOU's recently launched PRDP.
Meeting the Challenge Ahead
    Building upon these successes and recognizing the enormity of the 
challenge ahead for northern Uganda, USAID is committed to working with 
the GOU to bring solid and lasting stability to northern Uganda. That 
means people in the north have to feel that their government is 
supporting them and that they have a stake in their country. This will 
require the government to deliver basic services to help people move 
back to areas they left more than a decade ago. This necessarily 
includes work on the justice sector. Stability and reintegration is 
about the restoration of livelihoods, so people can feel the pride of 
supporting themselves and their families. Reintegration and recovery is 
about working through the painful process of reconciliation with 
family, neighbors, and community members who have been pitted against 
each other and who must reconcile atrocities committed against each 
other. USAID is committed to funding programs in northern Uganda to 
achieve reintegration and recovery for northern Uganda with long-term 
development that will ensure that the stability now enjoyed in northern 
Uganda will benefit generations to come. These programs will need to 
collaborate regionally, with Southern Sudan in particular, as 
increasing economic ties between the two have contributed to 
significantly increased economic growth in northern Uganda.
    USAID's strategy for northern Uganda is to support the GOU's 
National Peace, Recovery and Development Plan for northern Uganda 
(PRDP).
    The objectives of the PRDP that USAID are supporting are as (1) 
consolidation of state authority, (2) rebuilding and empowering 
communities, (3) revitalization of the economy and (4) peace-building 
and reconciliation. Details under each objective are as follows:
            (1) Consolidation of state authority
    Increase the capacity of GOU administration to govern effectively, 
deliver essential services, and provide security for the population.
    In support of this objective, USAID is sponsoring programs to build 
a more effective legislature, which will include training for MPs and 
staff so they can operate effectively in a multiparty Parliament and 
strengthen their engagement in anticorruption initiatives and with 
constituents, civil society, and local government. USAID is also 
providing support to local governments (particularly in the North) to 
become more accountable, by strengthening civil society and local 
engagement in anticorruption initiatives. In northern Uganda, USAID is 
disseminating messages to civil society to help community members know 
what their rights are and to ensure that their local-level political 
leaders are helping their communities.
            (2) Rebuilding and empowering communities
    Improved social service infrastructure and capacity of local 
government to provide basic services that increase the quality of life 
of the population.
    USAID trains community outreach workers in treatment of 
tuberculosis and malaria, supports immunizations against childhood 
diseases, provides insecticide treated bed nets, and improves the 
quality of and access to family planning services. In addition, Uganda 
is a focus country for the President's Emergency Plan for AIDS Relief 
and the President's Malaria Initiative (PMI). Through the Emergency 
Plan and PMI in Uganda, USAID and other government agencies collaborate 
with government, religious, and community-based institutions to deliver 
comprehensive prevention, care, and treatment for both diseases. These 
programs are working through the GOU's public health system, building 
capacity not only at district centers, but also at the parish level, 
thus enabling many returning IDPs to receive care at home similar to 
that which they were receiving while in IDP camps. USAID and HHS 
support health programs focusing on HIV and malaria across all of 
Uganda; however, a significant portion of this support is channeled 
through a program specifically for northern Uganda.
    Additionally, USAID is improving the quality of basic education 
through support to teacher training, strengthening school management, 
and increased parental and community involvement. USAID will also 
continue to provide water assistance to return communities, and 
community access roads to enable IDPs to access their home villages. 
Community grants will assist returnees to build infrastructure based 
upon their own collective priorities.
    Access to water, sanitation, and hygiene remains a significant 
concern across the Acholi and Lango subregions, particularly in areas 
of return that lack the services available in the IDP camps. USAID is 
working to extend water, sanitation, and hygiene programs to return 
areas by continuing to provide water assistance to communities of high 
return.
            (3) Revitalization of the economy
    Reactivation of the productive sectors with a focus on agriculture 
and rehabilitation of critical infrastructure with a focus on 
increasing cross-border economic trade.
    After years of conflict which resulted in over 90 percent of the 
population being forcibly located to IDP camps, revitalizing the 
economy and jump starting agriculture is the key element to helping 
people regain self-sufficiency and USAID has several programs 
supporting this objective. USAID is providing agriculture and 
livelihoods support to return communities, reaching over 60 percent of 
the population of Acholiland (by 2009), including agricultural inputs 
and extension, training and equipment provision to establish off farm 
activities such as tailoring, carpentry, and beekeeping. Additionally, 
much of the community road rehabilitation work planned will be cash-
for-work, thus resulting not only in improved infrastructure, but also 
in a badly needed infusion of cash into an economy that was until not 
long ago reliant largely on barter-only trade. This will include 
community-based livelihoods programs for the reintegration of 
excombatants and their families.
    USAID is continuing its work with public private alliances, which 
leverages funds from private companies for important development 
programs. The alliance with the Dunavant Cotton Company, for example, 
will provide 12,000 farmers in northern Uganda with inputs and training 
to increase cotton and food crop production, in addition to a 
guaranteed cotton market. USAID assistance will increase and diversify 
commercial agricultural production and increase competitiveness in 
local and international markets. This will be accomplished by improving 
agricultural productivity and strengthening producer organizations, 
increasing access to credit and savings services for rural people, and 
ensuring greater food security. By increasing the production and 
marketing of food and cash crops, rural incomes will rise.
            (4) Peace-building and reconciliation
    Increase access to information and media, increase access to trauma 
counseling services, strengthen intra and intercommunity conflict 
resolution, and support to the Disarmament, Demobilization and 
Reintegration (DDR) plan.
    USAID will provide support to address the social challenges in 
northern Uganda that have arisen as a result of fractured social 
relationships in order to resuscitate the peace-building and 
reconciliation processes. This will require putting in place mechanisms 
for rehabilitating the victims of war and reintegrating them into 
communities while strengthening the local conflict resolution 
mechanisms, and the relationship between civilians and government. 
USAID will support programs to provide a platform for ongoing 
reconciliation. Peace forums will be developed to facilitate 
relationships between citizens and the government, as well as among 
communities and individuals across the North. An important component of 
this program will be to increase access to accurate and reliable 
information, particularly regarding the Juba Peace Talks. Additionally, 
programs will focus on improving access to justice, including legal aid 
and dispute resolution, and increasing awareness of human rights and 
property rights.
    In sum, significant USAID resources across all sectors, 
complimented by diplomatic and defense-related initiatives, will work 
synergistically and in partnership with the Government of Uganda and 
with other donors to continue to provide the social, economic, and 
political foundations for a lasting peace in northern Uganda.
                eastern democratic republic of the congo
    The Democratic Republic of the Congo (DRC) is emerging from 15 
years of protracted conflict, a conflict that involved nine neighboring 
countries, cost as many as 4 million lives and caused social and 
economic damage that will take generations to overcome. Recognizing 
that eastern DRC's continued insecurity and weak governance is 
destabilizing for the region and threatens to undermine the progress 
being made in the DRC as a whole, USAID has increased its focus on both 
humanitarian and development resources to the East as part of a broader 
stabilization effort. In FY 2006 and 2007, USAID has provided an 
average of over $120 million in development and humanitarian assistance 
to the DRC, with an average of $80 million per year allocated to the 
East. Over 25 percent of assistance allocated to the East is longer 
term development assistance.
    The impact of the protracted instability in the DRC is far 
reaching. Poverty is widespread in the country, and the education and 
health care systems have eroded due to a lack of resources and looting. 
Throughout eastern DRC, insecurity hinders access to agricultural land 
and traditional markets. Gender-based violence (GBV) is rampant. The 
DRC has a vast supply of natural resources that has been a key source 
of conflict and exploitation for well over a century. If managed in a 
transparent manner and under a legal environment where laws are 
enforced, those resources could present an opportunity for economic 
growth that will benefit the population and provide an alternative to 
war. However, grossly inadequate infrastructure, a weak and ill-trained 
security apparatus and the legacy of generations of bad governance 
persist throughout the country. Major change will be required before 
the Congolese public gains confidence in its government.
    Insecurity and conflict have resulted in major humanitarian crises 
across eastern DRC, with conflict and tension presently strongest in 
the Kivus. In 2007, North Kivu province witnessed the most significant 
population displacement in more than 3 years, with an additional 
318,000 people displaced, bringing the total IDP population in North 
Kivu alone to 745,000.\4\
---------------------------------------------------------------------------
    \4\ OCHA estimates that in the DRC there are 1.1 million Internally 
Displaced Persons (IDPs) as well as 2.2 million former IDPs and 
refugees returning to their areas of origin that continue to require 
emergency assistance.
---------------------------------------------------------------------------
    To respond to the humanitarian crisis in the East, the USG \5\ has 
provided more than $683 million to support life-saving humanitarian 
activities in the DRC since 1999, in addition to the $311 million USAID 
has spent on development programs. In FY 07, USAID provided 33,822 
metric tons of emergency food assistance. USAID has distributed 
emergency food rations to over 300,000 persons displaced by violence in 
the North Kivu. USAID has distributed emergency relief supplies to 
nearly 250,000 displaced persons in North Kivu, and maintains an 
emergency relief supply stockpile (for 100,000 people) in Goma, North 
Kivu province. Importantly, USAID has supported activities to improve 
access to isolated areas in eastern DRC, including humanitarian flights 
to transport relief personnel to conflict-affected areas and road 
rehabilitation.
---------------------------------------------------------------------------
    \5\ Includes funds from entire USG, including State/PRM.
---------------------------------------------------------------------------
    USAID has supported emergency health interventions in the East, 
working through local structures to provide free access to 24-hour 
primary and maternal health care and referral services in temporary 
settlement areas. Throughout eastern DRC, USAID partners improved 
access to health care for more than 545,000 beneficiaries. Programs 
focused on the restoration of primary health services, training of 
health staff, availability of essential medicines, and the 
reconstruction and rehabilitation of health structures as well as roads 
and bridges for people to reach these facilities. In addition, food 
security and agriculture initiatives benefited more than 600,000 
conflict-affected Congolese.
    Assistance included distributions of seeds and farming and fishing 
equipment as well as training programs covering seed and soil 
conservation and marketing techniques. USAID also supported economic 
and market systems activities to ensure sustainable food security, 
benefiting more than 150,000 people through activities such as 
tailoring, banking, carpentry, and masonry.
    In addition to USAID's important humanitarian work, which is 
directed mostly to eastern DRC, USAID's programs also seek to promote 
reconstruction, stability, and transformational development. Before 
discussing our current program, I will provide some background on the 
history of USAID's work in the Congo.
USAID's History in the Congo
    USAID has had a continuous presence in the Congo since 1961 but our 
programs have had to remain flexible over the last 50 years due to 
chronic instability and periods of intense conflict. In 1964, USAID 
programs were directed at the development of a new role for the U.N. as 
coordinator of bilateral assistance activities; the implementation of a 
comprehensive economic stabilization program to contain inflation and 
the improvement of internal security through programs for military and 
police training. In subsequent years, programs also funded expatriate 
personnel to work with the Congolese Government to maintain 
administrative effectiveness until Congolese were trained.
    In the 1970s the Congo became increasingly stable as the Mobutu 
regime managed to put down the insurrectionary movement of the 1960s. 
During the economic boom of the first half of the 1970s driven by high 
world prices for copper (the major export product), the USAID's 
assistance focused on transport infrastructure development. Most USAID 
financing was in the form of loans to support road, river, maritime and 
air transport.
    The fall of world prices for copper in mid-1970s and poor economic 
policies adopted by the Government of the Congo eroded the capacity to 
respond to the basic needs of the population. In response to this 
situation, the aim of the USAID's assistance shifted to meeting the 
basic needs through development projects in health, nutrition, 
agriculture, rural development, human resources development, etc.
    In late 1970s and beginning of the 1980s, due to the deepening 
economic crisis, other components were added to USAID-funded 
development assistance programs, these included balance of payment 
support (commodity import programs and P.L. 480 programs) to support 
the manufacturing sector and reduce food deficits; policy dialogue to 
encourage the adoption of sound fiscal and monetary policies; and 
support for private sector initiatives.
    USAID's emphasis on economic development and policy reform 
continued into the early 1990. However, in June 1991 the Government of 
the Congo became 1 year in arrears of debt due to the U.S. Government. 
Brooke sanctions became effective restricting further development 
assistance to the country. A wind-down plan was being developed when in 
September 1991 the Congolese Armed Forces went on the rampage, looting 
industries and businesses.
    As a result of the Government's inability to maintain order and 
security, the USAID Mission drastically reduced its presence in 
December 1991. Lacking sufficient staff, USAID shut down its 
development program in April 1992. USAID provided only humanitarian 
assistance until March 1996 when the mission was closed completely and 
humanitarian programs were managed from Washington. After Laurent 
Kabila came into power in May 1997, USAID reestablished its development 
assistance to the DRC with a small staff, and opened a full mission in 
1998. USAID's programs focused on building democracy, stabilizing 
population growth and protecting human health, encouraging broad-based 
economic growth, and protecting the environment.
USAID's Current Program in DRC
    The real opportunity for the DRC is a new, legitimate government; 
one at peace with its neighbors and poised to engage in sustainable 
development. Attaining this goal will also contribute significantly to 
peace in the region. USAID's strategy is based upon the premise that to 
contribute to stability in Central Africa, the newly elected government 
must uphold the rule of law as embodied in the country's new 
constitution and deliver tangible results to the Congolese people. 
Security sector reform and disarmament, demobilization and 
reintegration programs for former combatants are a critical part of 
this development process.
    USAID is supporting coordinated donor efforts to help provide 
access to basic services, build on democratic structure, and contribute 
to economic growth to help consolidate the democratic transition, thus 
demonstrating the results of the democratic process at the community 
level. Large flows of donor assistance and support are needed to 
capitalize on this opportunity and make the transition irreversible. 
Despite prolonged insecurity, successful, democratic elections in 2006 
have resulted in the establishment of a new government. Insecurity 
persists, however, and civilian authorities are unable to operate 
effectively, especially in large parts of eastern Congo. USAID's 
strategy is focused on several key objectives, which are discussed 
below along with results.
Enhance Protection of Individuals From Physical Violence
    Despite concrete gains in the area of peace and security, violence, 
notably Gender-Based Violence (GBV) is a critical problem and an 
instrument of conflict. The authors of a recent U.N. report describe 
GBV in the DRC as the ``worst they have ever seen.'' Ungoverned space 
in eastern DRC, coupled with the ongoing conflict fueled by armed 
militias and other negative forces, provide an environment in which the 
cycle of violence against women and children can perpetuate and poses 
serious threats to efforts to protect these vulnerable populations from 
sexual violence and abuse. Ongoing population displacement due to 
continued conflict puts individuals at increased risk for abuse and 
threatens to undermine progress achieved through USAID-supported 
interventions. In an environment of lawlessness that permits the 
Congolese Army and police as well as numerous rebel groups to act with 
impunity, rape is used as a weapon against local populations, with 
women and children continuing to be the most vulnerable. U.N. agencies 
indicate a 60-percent increase in reported rape cases in North Kivu 
province from August to September 2007, with 351 cases in September 
alone.
    Since 2002, USAID has been supporting interventions that respond to 
GBV in eastern Congo and which address the immediate, medium, and 
longer term consequences of sexual violence for victims, their 
families, and communities. Programs help victims to resume their roles 
within families and communities and help to prevent new acts of GBV. 
USAID programs are designed around a holistic approach to GBV care and 
treatment, ensuring medical assistance (including fistula repair), 
psychosocial support, advocacy, sensitization, and socio-reintegration 
services, while promoting judicial support and legal referral when 
appropriate. To date, USAID has provided medical assistance to 45,000 
survivors of sexual violence, and 70,000 have received counseling 
support.
Separation and Abandonment of Children
    Child separation and abandonment has been a reality in DRC for many 
years, fueled by more than a decade of conflict, internal displacement, 
and a deteriorating economic situation. Since 2003, USAID has supported 
a program that aims to reintegrate separated and abandoned children 
(including former child-soldiers, street children, and IDPs) into their 
families and to reduce further separation and abandonment. The current 
program achieves reunification through family mediation; awareness-
raising on the rights of the child; income generating activities for 
vulnerable families and children; training of parents, government 
social workers, and religious leaders; training and support to centers 
for street children, and; public media campaigns. USAID's child 
protection activities have resulted in the reunification of more than 
6,000 children with their families, and extensive effort to prevent 
further separation through community support outreach and livelihoods 
activities.
Reintegrate Persons Affected by Crisis
    USAID's program works with the Government of the DRC to provide 
support for the reintegration of former combatants in eastern DRC, to 
support the development of stable communities in areas of return, and 
the forging of links between communities and government. USAID has 
contributed to the reduction in hostilities in Ituri and Katanga, 
including the reintegration of 13,000 former combatants, with plans to 
reintegrate up to 5,700 more. Reintegration of former combatants 
includes livelihoods assistance, which provides training and or 
equipment necessary to begin a small enterprise either back on the farm 
or for other nonfarm activities.
Livelihoods
    USAID is supporting the dissemination of disease-resistant stable 
crops such as cassava and plantain that have suffered a 50- to 100-
percent reduction in yield in the last 10 years. The 3-year, $5 million 
DRC cassava program ensures the availability of 960,000 food rations 
annually nationwide, at less than $1 per ration; no other food 
assistance program is known to achieve this cost efficiency in the DRC. 
This DRC program is part of a regional initiative to combat the same 
diseases in staple crops across several countries in Central Africa. 
The DRC's 18-month crop crisis control project has just been assured 
on-going funding by the Bill and Melinda Gates Foundation.
Increase Access to Essential Services
    USAID supports a package of integrated health sector services to 
increase access to and quality of primary health care and increase the 
capacity of national health programs and structures. While DRC is not a 
focus country, the U.S. Government HIV/AIDS activities in the DRC are 
part of the President's Emergency Plan for AIDS Relief, and USAID and 
HHS work with the Government of the DRC to implement HIV/AIDS 
activities in prevention, care, and treatment and to build capacity in 
the DRC Ministry of Health (MOH). Under the Emergency Plan, USAID is 
combating HIV/AIDS through a regional approach, focusing activities on 
principle transport corridors across the Great Lakes that are important 
vectors of the disease. USAID support for strengthening routine 
immunizations has shown steady increases in terms of access and use of 
services, as is evidenced by the increase in vaccination coverage in 
program areas from 60 to 78 percent. Health programs are implemented 
throughout the DRC, with significant programming in the East.
    Additionally, USAID is working to improve access to, and quality 
of, basic education, especially for girls, in the eastern DRC through 
innovative teacher training, distribution, and proper use of 
educational materials, and encouraging community participation in 
education. USAID is training over 1,000 teachers and education 
officials in participatory learning methods, and providing them with 
teacher guides, textbooks, and didactic materials. In addition, first 
and second grade teachers receive training in and lead their students 
through daily learning sessions in interactive radio instruction. This 
activity has resulted in a 35-percent increase in student achievement, 
and has increased enrollment and retention of students by 22 percent. 
Through USAID programs, over 107,000 students have access to learning 
kits and materials. In order to play a more active role in school 
decisionmaking, approximately 3,000 community members have received 
training in the development of income-generating activities, and in 
school administration and management. As a result, community groups 
have raised USD 31,390, most of which goes to supporting the schools in 
the communities and 1,249 parents now play an active role in school 
management committees.
Advance Democratic Governance
    Building upon the success of the 2006 elections and installation of 
the new government, provincial governors, and provincial assemblies--an 
electoral processes for which USAID provided significant support--USAID 
is supporting the transformation of the Independent Electoral 
Commission into a permanent institution. USAID continues to support 
efforts to strengthen judicial independence, expand access to justice, 
build the capacity of new judiciary personnel, advocate for human 
rights, and support peaceful means to ease tension and manage conflict. 
U.S. assistance was instrumental in the preparation of new laws on 
magistrates and the passage of a law against sexual- and gender-based 
violence. Programs also focus on strengthening political party leaders, 
civic activists, elected local and national government and government 
officials to address the challenges inherent in the consolidation of 
good governance in a rebuilding state.
    USAID is also supporting activities to clearly define the roles of 
the executive, legislative, and judicial branches of government while 
simultaneously working to create a legal framework for 
decentralization. Furthermore, the USAID is working with civil society 
organizations and media to build a more active and representative civil 
society.
Public/Private Partnerships
    USAID is also working with large mining companies to promote 
transparent practices and reinvestment in communities. Global 
Development Alliances with three mining companies have leveraged 
USAID's $3.5 million investment to raise $10 million in funds from 
these companies to support 38 community infrastructure projects such as 
schools, clinics, markets, and water points. Nearly 2,000 families 
received support for agriculture activities, over 900 women are 
participating in microsavings and literacy programs and 252 small-scale 
miners were trained to begin new jobs and businesses.
Central African Regional Program for the Environment (CARPE)
    USAID is improving livelihoods for inhabitants of the Congo Basin 
while promoting the sustainable use of natural resources and 
biodiversity conservation. CARPE activities take place in 12 key 
biodiversity landscapes in seven countries: Rwanda, the Republic of the 
Congo, the Central African Republic, Cameroon, Equatorial Guinea, the 
DRC, and Gabon, with over half of its activities located in the DRC. 
Many of these landscapes are transboundary in nature and require 
consultation and cooperation among different national governments. 
CARPE also supports cross-cutting activities that serve the entire 
basin, such as monitoring of deforestation trends, natural resource 
governance, and harmonization of policies.
$15 Million Supplemental
    In addition to the programs described above that address critical 
humanitarian and development problems in the East and other regions of 
the DRC, USAID is using the additional $15 million in supplemental 
funds provided by Congress to reinforce our current strategy to fund 
timely and critical interventions to stabilize the eastern DRC. These 
funds are being used to support stabilization activities, 
demobilization for former combatants, peace initiatives, and the 
consolidation of democratic gains in critical areas of eastern DRC, 
focusing on the Kivus where escalating tensions threaten to erupt into 
large scale conflict. USAID has maintained a temporary office in the 
east and will reinforce our presence in the east to respond to 
increasing insecurity, and vulnerability of the local population.
    The supplemental will fund the following activities:
            (1) Reconstruction and reintegration in North Kivu
    In order to strengthen the scope and impact of Disarmament, 
Demobilization and Reintegration (DDR) activities in North Kivu, 
supplemental funds will be used to expand, accelerate, and complement 
DDR options for excombatants. Considerable flexibility is required in 
the programming of these funds given the uncertain timing of a 
breakthrough in dialogue leading to demobilization, the undetermined 
number of demobilizing combatants, as well as uncertainties regarding 
the timing of funding through the World Bank Program. First priority 
will be placed on a timely response to demobilization and reintegration 
requirements, modeled on successful activities in Ituri and Katanga. In 
order to create additional incentives for combatants to demobilize and 
return to communities in the Kivus, any remaining funding will be used 
to extend the reach of civilian institutions and extend U.S. presence, 
support community-based programs to restore basic services and provide 
opportunities for job creation, and address fundamental needs for 
nonviolent conflict mitigation as a means of achieving post-conflict 
reintegration. Should the FDLR demobilize in great numbers, USAID will 
cooperate with the World Bank regional Multi-Country Demobilization and 
Reintegration Program (MDRP) program to support needs on both sides of 
the border as the Disarmament, Demobilization, Reintegration, 
Repatriation or Resettlement (DDRRR) process takes these excombatants 
across the border to reintegrate in Rwanda, their country of origin.
            (2) Dialogue and conflict mitigation in North and South 
                    Kivu
    Supplemental funding will focus on fostering dialogueue and 
agreement among key leaders and reducing conflict, particularly in 
North and South Kivu. This dialogueue will be bolstered by 
``stabilization centers'' in eastern Congo that will strengthen 
existing democracy centers that USAID established in 2004. These 
democracy centers will provide continual presence and the ability to 
negotiate agreements in the east where conflict is greatest. Funds will 
also go to support upcoming local elections in North Kivu and other 
critical areas in eastern DRC to ensure that all groups are confident 
of their representation in local government.
            (3) Stabilization in Ituri and northern Katanga
    Supplemental funding is also directed to DDR and stabilization 
activities in Ituri and northern Katanga. This program is already 
taking advantage of a fragile window of stability in these two areas 
that saw some of the worst militia fighting and population 
displacements in the DRC. The program will provide livelihoods options 
to excombatants to assist in their reintegration in the two areas, and 
will also provide a peace dividend in Ituri.
    The Democratic Republic of the Congo is a potential leader in sub-
Saharan Africa because of its central location and vast array of 
natural resources. USAID has committed significant resources and 
achieved significant results in the DRC and will continue its support 
of broader USG goals of peace and stability in the DRC and in the 
region.

    Senator Feingold. Thank you both for your testimony. I was 
thinking we went from the Great Lakes to the Great Lakes. I've 
just been dealing with low-water-levels issues for Lake 
Superior and Lake Michigan, and to go there and to be looking 
on to Lake Kivu from Goma is really a sight--the places 
couldn't be more different, but it's sort of the whole 
challenge we have as this country, to focus on our own country, 
but also make sure that we're doing the right thing in such a 
critical area. So, I thank you for your leadership in this 
area.
    Secretary Frazer, you mentioned, in your testimony, that 
the Embassy is opening a presence in Goma. I'm pleased to hear 
that. Would you give me a sense of what that presence is going 
to look like?
    Ambassador Frazer. Well, initially it will be small. The 
most important thing we're going to do is try to send an 
individual, while initially on a temporary-duty basis, to go 
out to start engaging, on a daily basis, with MONUC and the 
Congolese Government to try to get that individual to also be a 
presence in observing the process of brassage between Nkunda's 
forces and also to be a presence in, perhaps, an international 
observer delegation to ensure that the population in the North 
Kivus are protected during this process of brassage, getting 
Nkunda's forces to integrate. And so, it's initially going to 
be a small presence, but, of course, our Embassy in Kinshasa 
will also continue to ferry out individuals. And, as I said, my 
Senior Advisor for Conflict Resolution also is traveling 
frequently to the region. But the permanent daily presence will 
be one individual from the U.S. mission, the State Department, 
and then we're hoping AID will also have a person there.
    Senator Feingold. That sounds like a small step in the 
right direction. That is as complicated a situation, I'm sure 
you agree, as I've ever seen, so I'm pleased to hear that.
    As you know, the October 15 deadline set by President 
Kabila for General Nkunda's forces to reintegrate into the 
national army had to be extended to the end of this month 
because so few of Nkunda's forces had come forward for 
reintegration. Then, last Wednesday, President Kabila announced 
the Congolese Army would disarm the rebel fighters by force if 
they do not meet the new deadline for reintegration. What is 
the administration's position on how the DRC Government should 
deal with General Nkunda and his forces should this deadline be 
missed?
    Ambassador Frazer. Well, we've worked very closely with 
President Kabila to ask him to extend that deadline, to give 
more time. His forces are in position, some 23,000, to address 
this militarily, but we're very concerned about the civilian 
population being caught in the crossfire. And so, we will 
continue to push a diplomatic resolution of this problem. I've 
talked to President Kabila at least two or three times since 
our meetings with him in New York in September, so we're in 
constant contact with him. We've also had contact with Nkunda, 
as well, and so, it really takes two sides, and we've urged 
Nkunda to allow his forces to go to brassage. Many that have 
gone have escaped and gone into brassage. We're asking him to 
allow his forces to go into brassage, and that, for him, that 
he actually seek exile. So, we're working very closely with 
South Africa, MONUC, and others to pursue a diplomatic end to 
this crisis.
    Senator Feingold. Even if this deadline is missed?
    Ambassador Frazer. Well, the deadline----
    Senator Feingold. Correct?
    Ambassador Frazer [continuing]. Was not--I mean, President 
Kabila took a conscious decision to extend the deadline, and 
that was a conscious decision that came about as a result of 
our dialog with him. I----
    Senator Feingold. But what about this deadline, when it 
comes?
    Ambassador Frazer. Well, I think----
    Senator Feingold. What's the message, if that's missed?
    Ambassador Frazer. I think that President Kabila's view, as 
he has said to me many times, is that he would prefer to 
resolve this, diplomatically. He reserves the right, given that 
he's the head of a sovereign legitimate government with a 
renegade general on his hands, to deal with it militarily, if 
necessary. But his first choice, his first option, is to 
address it diplomatically.
    And so, we will have to see where we are when the deadline 
approaches next, but what we're trying to do in the interim 
period is to talk to Nkunda, with President Kabila fully 
informed of those conversations, to encourage him to allow his 
forces to go to brassage and to find a diplomatic solution. 
But, right now, frankly, he is the block to this ending 
diplomatically, not President Kabila.
    Senator Feingold. No; I understand that, and I understand 
President Kabila's rights, but I hope that our message will 
continue to be what you articulated, which is that diplomacy 
should be used, rather than a military solution, even if this 
deadline isn't met. That should be our message. And I hope 
you'll consider that seriously.
    In eastern DRC, the brassage process has stalled and 
fighting between forces loyal to General Laurent Nkunda and the 
Armed Forces of the DRC (FARDC) is ongoing--with, as you well 
know, disastrous consequences for ordinary civilians. Please 
describe the objectives, activities, and scope of the U.S. 
assistance for security sector reform efforts in the DRC. How 
successful have these efforts been? What are the challenges we 
continue to face?
    Ambassador Frazer. Our efforts on security-sector reform 
and training of the FARDC have been limited. That hasn't been 
our area, in terms of the division of labor, internationally. 
The South Africans and the Belgians have been at the forefront 
of security-sector reform, with some help from the Angolans, as 
well. We have worked to try to train noncombatant officers--
staff officers--to try to strengthen the backbone of FARDC. We 
have undertaken to work on the military justice survey; we've 
done a survey, and we're looking at strengthening the military 
justice system. And we are now considering direct military 
training of a limited number of FARDC units so that they can 
have the capacity to deal with the negative forces. President 
Kabila has requested it, we're considering it, but we haven't 
determined who would implement that type of training. So, it's 
primarily staff officer training and assessing the justice 
system for further support.
    We're also doing work with demobilization. And Kate 
Almquist perhaps can discuss that in greater detail, especially 
the focus on child soldiers.
    Senator Feingold. Well, let me just go back to the 
Congolese Army itself. Regarding the human rights issue, which 
you alluded to, the army is one of the worst human rights 
offenders in the country. We heard this directly from victims 
in eastern Congo. Recent U.N. reports state that the FARDC 
continue to be responsible for an alarming number of human 
rights violations. What is our strategy to address the role of 
the FARDC as a source of human rights violations, rather than 
as a force to protect the people?
    Ambassador Frazer. As I'm saying, I think that we are 
increasingly realizing that we need to move beyond the 
confidence-building efforts that we're doing with the 
neighboring countries to get more directly involved in 
security-sector reform. We will try to work on military 
justice.
    Normally, our training programs deal with issues of code of 
ethics. So, when we look at the training that we may do, we 
would certainly incorporate that as a component of it. But, 
frankly, the FARDC is an undisciplined army; it is integrating 
many different rebel forces, and it needs training and 
professionalization. And, as I said, this was not an area that 
the United States was expected to carry out, in terms of the 
division of labor, internationally, but it is certainly an 
effort in which now, President Kabila has asked us to increase 
our participation, and we see the need to do so, and we need to 
find an implementing agency, as such, whether it be the new 
AFRICOM command that's standing up, or it's EUCOM, or it is a 
contract with retired military personnel through State 
Department security assistance programs. We are looking at--and 
that will be part of the conversations between President Kabila 
and President Bush--how we can we do more directly to train 
this army to behave professionally with the rule of law and a 
code of conduct?
    Senator Feingold. A number of press reports recently have 
indicated that there may be a relationship between the FDLR and 
the FARDC. What can you tell me about this collaboration?
    Ambassador Frazer. I know that that is alleged, and there 
certainly may be local commanders of the FARDC that have ties 
with commanders of FDLR. In the past, when the Congolese 
Government was fighting against Rwandans and Ugandans on their 
territory, there was a relationship between those militaries, 
certainly. And so, those ties exist. According to President 
Kabila, it is not official Congolese policy to in any way work 
or associate with FDLR. In fact, he's come up with a plan for 
dealing with the FDLR, hopefully to get them to peacefully 
repatriate to Rwanda. But there may be ties, at the local 
level.
    Senator Feingold. OK. What is the administration's view on 
dealing with the numerous rebel groups in the East--is it 
better to deal with them sequentially or simultaneously?
    Ambassador Frazer. Well, we would like them to be dealt 
with simultaneously, but we recognize the limits of the 
capacity of the Congolese Government and FARDC, and we also 
have been urging, over the years, for MONUC to step up its 
activities, as well, against these negative forces, because 
it's part of their mandate. We are happy that MONUC is 
providing significant assistance to FARDC in dealing with 
Nkunda, and we understand that President Kabila, if he's going 
to have the army capable of addressing the negative forces, 
certainly has to have discipline within his forces. And so, a 
renegade general has to be a priority of the government. And 
so, we understand his need to deal immediately with Nkunda, and 
we're trying to help him deal, as I said, diplomatically with 
that problem. But if he could--if we could build capacity 
quickly, then simultaneous is necessary.
    Senator Feingold. But you expect it will be sequential at 
first; is that what you're suggesting?
    Ambassador Frazer. We expect that the priority will be to 
Nkunda, yes.
    Senator Feingold. And then perhaps a simultaneous effort?
    Ambassador Frazer. Yes. Well, I mean, it is going on 
simultaneously, in the sense that he has developed a plan for 
dealing with FDLR, so he's not ``waiting for,'' but, in terms 
of the forces able to actually address the FDLR, whether 
militarily or diplomatically, I think his attention is very 
much, right now, on Nkunda.
    Senator Feingold. Let me switch to Uganda for a moment. How 
is the administration planning to work with the Ugandan 
Government and other donor countries to support the 
reconstruction in northern Uganda? And what resources are in 
place to fund these efforts?
    Ambassador Frazer. Well, we certainly will work with the 
Ugandan Government on their new recovery plan in northern 
Uganda, and we've urged them to develop such a plan as part of 
the process of reconciliation. We will look at using some of 
our supplemental funds to deal with that plan. The plan still 
needs to be vetted in the Ugandan Parliament. It needs buy-in 
from the local community. And so, we're going to work with that 
process of trying to get stakeholder ownership of this plan, 
that it's not just a government plan, but that the northern 
Ugandans also buy into it. But we certainly will look to help 
fund and assist the government in this recovery plan.
    Senator Feingold. Thank you, Secretary.
    Ms. Almquist, despite the completion of the elections in 
late 2006, poor governance and corruption remains rife 
throughout the DRC particularly in the lucrative mining sector. 
What is the U.S. Government doing to promote good governance in 
the sector to ensure that mining revenues benefit the 
population as a whole?
    Ms. Almquist. Mr. Chairman, we're doing several things. We 
have a couple of our global development alliances in Congo that 
are working specifically on the extractive industry sector to, 
one, try and get more of the revenues to flow back into 
community-based programs that do support the people and benefit 
those in those regions. So, we have several activities in that 
regard. And then, we're also working on about 87 local 
anticorruption committees, particularly in the mining areas, 
that are intended to empower and train local authorities on 
anticorruption efforts, as well as civil society, so that they 
can hold accountable their governments for the resources in 
those areas.
    All of that builds toward Congo's participation in the 
Extractive Industries and Transparency Initiative, EITI.
    Senator Feingold. Thank you. The current humanitarian 
situation in northern Uganda is complex, with people moving 
between camps and transition sites and their homes of origin. 
Therefore, an effective humanitarian response must respond to 
both emergency and early recovery requirements. How are OFDA 
and USAID coordinating a strategy that maximizes their ability 
to serve these short- and medium-term needs? Have they 
developed a joint plan? What kind of funding is going to be 
required from Congress for this?
    Ms. Almquist. Mr. Chairman, in the near term, we anticipate 
ongoing levels of humanitarian funding, approximately where 
they've been, in the $10 to $12 million range from OFDA for 
northern Uganda the last couple of years, as well as support 
from the Office of Food for Peace for food assistance. There 
are about 2.1 million conflict-affected or food-insecure 
individuals in northern Uganda and central Uganda. So, that 
will be ongoing, even as more and more displaced persons move 
closer to home or all the way back to home.
    We've already seen, since 2005, half of the displaced 
population leave the camps. Over half of those, 520,000 or so, 
have actually returned home to their home areas, and the other 
400,000 are in between, in interim sites. So, OFDA is working 
hard on access to clean water and sanitation in those areas, 
livelihood support for people who have either gone home or are 
on their way home, as well as road rehabilitation and the food 
assistance that I mentioned.
    The mission has also dedicated a significant number of 
resources in the last couple of years to northern Uganda, 
working closely with our humanitarian program to support 
efforts to improve basic services in health and education. I 
think you're aware that we have a significant malaria and HIV/
AIDS program, related to both the President's malaria 
initiative and PEPFAR, running in northern Uganda, 
intentionally done not just to address those two critical 
issues, but also to expand basic health services for the 
population as a whole.
    We're also working on education, in terms of teacher 
training and school management, student counseling, radio 
instruction, things we can do to normalize life for 
individuals.
    Our mission, together with our humanitarian colleagues from 
OFDA and Food for Peace, have recently had a planning meeting 
in Uganda--and in the North, specifically. We had a joint team 
go up, and they are putting together the strategy that will 
articulate the criteria for when humanitarian assistance can 
and should phase out. But, for the moment, we anticipate 
continuing to ramp up on the development and reconstruction 
side, while we maintain the humanitarian assistance necessary 
to facilitate the return process.
    Senator Feingold. To what extent do you think the Juba 
talks have impacted the humanitarian conditions on the ground? 
And how can we make sure that these--and I know this is what 
you were talking about, in part, here--how can we make sure 
that these are irreversible improvements?
    Ms. Almquist. Well, I think the Juba talks have given the 
people in northern Uganda a lot of confidence and hope that 
peace will really come. We've certainly seen an improvement in 
the security situation in northern Uganda since the start of 
the talks, and security is the most important factor for people 
who decide to go home. Those who still are in their interim 
sites aren't yet convinced to go all the way back to their 
farmlands, although they are within--in most cases, within 
several miles of their home farms, and are able to access 
farmlands during the day and then come back to the interim 
sites in the evening.
    So, I think, as the peace process continues to move forward 
in Juba, we will see more and more people take advantage of the 
stability that's provided there to really return home, and 
that's where ensuring that our assistance is there in a timely 
way to support the return process, as well as to work with the 
government's plan on recovery and reconstruction--so, there's a 
peace dividend that consolidates the efforts that are going on 
at the peace talks are very important.
    And we're working closely with the Government of Uganda. We 
are reviewing the plan that they just launched on October 15, 
and we'll see how we can further shape our activities to 
respond to the government's plan and to prioritize additional 
resources, if needed.
    Senator Feingold. One thing we were very struck by was just 
how resource-rich northern Uganda is. And since the region is 
already a supplier of a substantial amount of food for Southern 
Sudan, people may not understand that this is the kind of a 
place, where, if we can stabilize it, the potential is great.
    Ms. Almquist. It's tremendous. Both northern Uganda and 
Southern Sudan have the potential, along that border, to be a 
breadbasket for each of their countries. And so, agricultural 
activities are already ongoing to get seeds and tools out, to 
do farmer training, to increase access to markets. We're 
working with a couple of--through a couple of our public/
private partnerships on sunflowers and cotton already in 
northern Uganda, to further boost the economic activity and 
take advantage of the peace, too--the more economic activity 
there is, the more normalcy, the more, I think, reason people 
have to support peace, rather than be dissatisfied with 
political realities that may still take some time to work out. 
But we're very optimistic about the peace process, and very 
focused on it in Juba, and I think that's going to give the 
opportunity for long-term stability in the North.
    Senator Feingold. Well, that surely is right.
    Let me go back to eastern Congo for a minute. As you know, 
Virunga National Park has been on UNESCO's List of World 
Heritage in Danger since 1994, but the recent escalation in 
violence threatens to cause irreversible damage to the 
exceptional biodiversity of this property. For example, at 
least 11 rare mountain gorillas have been killed in the past 
several months, and many park rangers have fled due to 
fighting. I was very pleased, therefore, when the State 
Department made available $496,000 in new funds to support 
Virunga Park's rangers and endangered wildlife.
    Ms. Almquist, can you delineate exactly how this money will 
be used and the mechanics of ground implementation in terms of 
NGO and government collaboration?
    Ms. Almquist. Well, as you point out, $496,000 additional 
has been prioritized to respond to this situation; $120,000 of 
that is to support intensive gorilla protection activities, in 
particular, round-the-clock park ranger efforts to patrol and 
provide surveillance. In addition, we will be increasing the 
height of an existing freestanding stone wall that's 50 
kilometers in length and half a meter wide already. This wall 
marks the park boundary in the sensitive area frequented by 
mountain gorillas, and keeps the crop-raiding wildlife 
contained inside the park. So, that's one very specific thing 
that we're going to be doing, as well as intensifying the 
dialog and working with the communities in and near the park 
area to cut down on the poaching and the insecurity and 
violence that's getting to these gorillas, along with the 
civilian population. That's certainly quite concerning. So, the 
remaining $375,000, more or less, will be used to support our 
ongoing landscape program that we have already focused on 
Virunga through our CARPE program.
    Senator Feingold. As you obviously know, on the Rwandan 
side, Virunga has become a key tool for ecological tourism. 
What steps is the United States taking to encourage the 
Congolese Government to make the same commitment to Virunga 
Park and to prioritize protection of not only the gorillas but 
of the national park as a whole?
    Ms. Almquist. Well, we are working closely with the 
Congolese Government, as well as about nine other countries 
across Central Africa, to focus on preservation and 
conservation of the natural resources there, biodiversity 
issues. And Virunga is part of that larger CARPE program. So, 
it's an important area for us. We're working with the Ministry 
in Kinshasa, as well as with the local officials and 
authorities on both sides of the border there, to do just what 
you've said.
    Senator Feingold. I thank both of you for your testimony 
and your answers and for your work in this area. Thank you very 
much.
    I'd ask the next panel to come forward.
    Good morning, and my thanks to the second panel.
    We'll start with the testimony of Ms. Gayle Smith.

 STATEMENT OF GAYLE SMITH, SENIOR FELLOW, CENTER FOR AMERICAN 
                    PROGRESS, WASHINGTON, DC

    Ms. Smith. Thank you, Senator, very much. And thank you 
both for convening this--thank you both for convening this 
hearing, and also for your leadership on U.S. policy toward 
Africa. It's most welcome.
    As I prepared this testimony, I was struck by something, 
which was that, 10 years ago, when I was working on these 
issues, both Congo and Uganda, I was looking at the same 
problems: Rampant militia violence in eastern Congo, structural 
poverty, the prevalence of arms, the absence of trade that 
might unite communities, regional tensions.
    I think we've seen considerable progress since then, and 
the fact that the regional war is ended is to be congratulated 
and is huge. But I think we've got to look at the fact that 
there hasn't been more progress in a decade and take into 
account that some of it is--some of that is due to 
circumstances beyond our control, but some of that, I think, 
has to do with our own limitations. And, if I may, I would like 
to both submit my written testimony for the record, but also 
indulge, with your permission, my confidence in your leadership 
of this subcommittee to talk about some of the bigger things we 
might do to consolidate progress.
    Frankly, when I look at the situation, and the progress 
report of the Assistant Secretary notwithstanding, I am not 
overly confident that we can consolidate peace and security in 
the Great Lakes at this point, and I fear that what we're doing 
is chipping away at the edges of success, largely because we 
don't have the strategies or tools that we need to make a real 
difference. I'd like to mention four, if I may.
    I don't think anyone in this room would disagree that Congo 
qualifies as a weak and, some would argue, failing state. This 
is something we've all talked about a lot, it's a big issue in 
the foreign policy community, it was mentioned in the 
President's national security strategy. Experts believe there 
are 53 around the world; the majority in Africa. We do not have 
a strategy for dealing with weak and failing states. I would 
argue, it's just as important to reach agreement on that as it 
has been on terrorism, homeland security, climate change, or 
trade, any of the other issues where our national interests 
meet up with global realities. If we don't have that, we're 
trying to use individual projects, partly staffed embassies, to 
solve huge, huge problems. And the first panel, I think, 
exposed what those are.
    The second--and, I think, Senator, you know this well; and 
I also serve on the HELP Commission, which is mandated to look 
at this problem--I have come to the conclusion that our foreign 
aid system is, at present, irretrievably broken. We talk about 
unleashing our full development--or unleashing the full 
development potential of our partners. We need to unleash our 
own. I think the Assistant--or Deputy Assistant Administrator 
described some very, very good projects in the Congo and 
Uganda, but I think we suffer considerable constraints. We have 
too many pots of money and not enough professionals. We have 
multiple good projects, but fewer long-term investments. Most 
important, I think we need to elevate assistance much, much 
higher in our foreign policy strategy. And, particularly with 
the Congo, if you think about it, even if we make gains in the 
East on the security situation, even if we make political gains 
on a stable government, consolidating those gains means that 
the country needs enough trade to link people together, enough 
infrastructure to unite them, sufficient social services to 
build strong communities. And, again, we don't have those tools 
or investments, at present.
    Third is our diplomatic presence. I'm delighted that 
there's going to be a diplomatic presence in Goma, and I wish 
them all success. One person TDY in Goma, with all due respect, 
even if he or she is the best and brightest in the entire State 
Department, is not sufficient. And that's not a criticism of 
the Department. That is a reflection, I think, of the fact, and 
as you know--that our diplomatic capacity in Africa is far less 
than we need. We've got the same problem, I believe, in the 
peace talks in Uganda. We need a much greater diplomatic 
presence there. I think we need to look at two things there. 
One is an overall increase, or something that I believe you 
have spoken to, which I think we might be able to do in the 
shorter term, which is to create diplomatic surge capacity by 
creating regional diplomatic cells. In this case, I would put 
one in Nairobi, where we could deploy high-level Foreign 
Service officials who are able, if the Ugandan peace talks need 
a steady, full-time presence, to put somebody there. If this 
lone individual in Goma starts to make success, he or she can 
be buttressed by other people with the skills and resources we 
need.
    Finally, Senator--and I'm sure you've seen the Post this 
morning--one of the most stunning things about this region and 
about the Congo is our failure, as yet, to give meaning to the 
responsibility to protect. I think we all believe that this 
doctrine that embraces our common humanity is of critical 
importance, but it doesn't make much sense when we look at what 
is the worst instance of sexual violence on earth. One U.N. 
official has said that rape in the eastern Congo is not about 
destroying the enemy, it's about destroying women. I believe 
it's more than a crime against an individual, it's a violation 
of the family, community, societies, and our common humanity. 
Again, we need to light a house on fire on this issue. This is 
one of the most grave crimes against humanity we've seen in a 
region that is, tragically, known for it. But, again, that's 
something that is at the, if you will, 30,000-feet level, and I 
hope that, with your leadership, we can start to get some of 
these.
    Finally, in questions, I'm more than happy to deal with 
specifics, but I thought I'd take the opportunity to go big-
picture this morning.
    Thank you.
    [The prepared statement of Ms. Smith follows:]

    Prepared Statement of Gayle E. Smith, Senior Fellow, Center for 
    American Progress and Cofounder, ENOUGH Project, Washington, DC

    Senator Feingold and members of the committee, thank you for this 
opportunity to testify. For the purposes of this hearing, I would like 
to focus my remarks on the Democratic Republic of Congo. The DRC 
demands our urgent and sustained attention because it is poised to make 
progress toward ending a long-running crisis--or fall victim to its 
recurrence.
    There are concrete steps that can and must be taken today. As 
militia forces are pressed to disarm in the east, we must put in place 
the programs needed to support and sustain disarmament and ensure that 
civilians are protected. In the wake of elections, we must redouble our 
support for security sector reform. To consolidate newfound peace and 
security, we must increase our investments in the groundbreaking 
program led by the Wilson Center's Howard Wolpe and designed to 
overcome mistrust and rebuild the cohesion of the state by training 
officials in collaborative decisionmaking--in communications, 
negotiations, group problemsolving, and the analysis of conflict. There 
are countless other steps we must take, many of them outlined in 
``Averting the Nightmare Scenario in Eastern Congo,'' a recent ENOUGH 
Project report that I am submitting for the record and for the 
subcommittee's consideration.
    But while immediate action is needed to consolidate progress in the 
DRC, what may be most pressing is our need to start responding 
structurally and with an eye to the long term. I say this because with 
perhaps only a few changes to detail, the recommendations that I offer 
today are little different than those I would have provided 10 years 
ago. And this, Mr. Chairman, gets to the heart of the problem.
    Ten years ago I was living in Africa, then as senior advisor to the 
Administrator and Chief of Staff of USAID, just prior to assuming the 
position of senior director for African Affairs at the National 
Security Council. The issue of the day in the DRC was militia violence 
in the East, where we faced a crisis borne of the spillover of the 
Rwandan genocide into a region beset by weak governance, poverty, local 
conflict, the availability of arms and the presence of valuable natural 
resources. Today, though some of the names have changed and many 
battles have been waged and ended, we are facing what are fundamentally 
the same challenges.
    The successful legislation introduced by Senators Obama and 
Brownback represents an important step in the right direction, as it 
calls for a comprehensive bilateral strategy coupled with increased 
multilateral engagement. I believe we must build on this foundation, 
and do much more.
    Let me be clear--that we have not seen a greater return on our 
investments of diplomatic and development capital is in part due to 
circumstances beyond our control. But it is also, in large measure, the 
result of our own limitations.
    Let us pretend for a moment that we had in hand the strategies, 
tools, and resources necessary to have a real and lasting impact on 
developments in the Democratic Republic of Congo. Let us pretend for a 
moment that we had concluded that our interests in Africa required 
sweeping reform and the introduction of new and innovative policies and 
programs. Let us pretend for a moment that our policy inputs matched 
our desired policy outcomes.
    If the scenario I describe was real, I would testify today that our 
10-year plan for U.S. engagement with the DRC had been approved by the 
interagency in an exercise led by the joint NSC/NEC Directorate for 
International Development. I would tell you that our regional 
diplomatic cell in Nairobi had surged to ensure that we had ample 
diplomatic coverage in eastern Congo and could align our diplomatic 
efforts in DRC with those throughout the Great Lakes region.
    I would report that with its recently reconstituted professional 
staff, our reformed foreign assistance agency had launched programs 
designed, on site, to address DRC's vulnerabilities and build its 
capacities, focusing in particular on security sector reform, 
institution-building, the creation of jobs and small-scale enterprises 
able to deliver an urgently needed ``peace dividend,'' and the 
development of a low-cost renewable energy sector. I would add that we 
were coordinating our efforts with those of other donors in order to 
ensure that all of the development bases were covered. I would testify 
that now that our internal policies had been harmonized, DRC was on the 
path to accessing expanded AGOA benefits, domestic trade support and a 
new post-crisis debt relief facility.
    I would tell you that our efforts to collaborate with private 
philanthropy and leverage the engagement of the private sector were 
paying off--that our new ``Post-Crisis Jobs Creation Program'' had just 
launched in the DRC, and that the Europeans had responded positively to 
our invitation to participate. I would tell you that the New Mines 
Program, built on Liberia's successful effort to negotiate new, safer, 
and more equitable terms for the extractive industries, was off the 
ground in Kinshasa.
    And I would testify that our decision to lead an international 
effort to modernize and improve the agility of the United Nations was 
also bearing fruit, and that we and other Security Council members had 
agreed to contingency plans for ensuring that a fully funded MONUC 
could provide for civilian protection in the east, where militia forces 
were resisting pressure to disarm.
    With some great relief, I would tell you that incorporating tools 
to prevent and respond to rape into the standard operating procedures 
of OFDA's DART teams was a good idea--that women had been registered, 
protection officers had been put in place, rapes were being reported 
with greater regularity and treatment and counseling were available in 
90 percent of affected communities. I would also report that our 
emphasis on accountability for crimes against humanity was paying off--
and that we and our partners had stepped up prosecutions against those 
employing rape as a tool of war.
    I would then report that our foreign aid agency, the State and 
Defense Departments, our intelligence agencies and the Department of 
Homeland Security were working together to conduct a transnational 
threat assessment for the DRC, designed to identify its vulnerability 
to the ebola virus and pandemic flu, international crime syndicates, 
money laundering and terrorism. I would tell you that our aim was to 
launch a capacity-building program with our international partners by 
December, and that our first priority was working with the government 
to secure fully the DRC's supplies of uranium.
    And finally, of course, I would thank you for the full funding 
Congress had provided.
    I only wish that such testimony was possible. What is possible is 
to tell you that we are getting some things right: We supported 
elections and are engaged in support of further democratization; our 
aid dollars are up; we have a senior advisor for Conflict Resolution; 
the President of the DRC will meet President Bush next week.
    But let us be frank. At best, we are chipping away at the edges of 
success; at worst, we are creating expectations--in the executive and 
legislative branches of our own government, amongst our public, and, 
most importantly, in the region--that we cannot meet. Let me point to 
four key reasons why this is the case, and offer up as many potential 
solutions.
    First, we lack a strategy or the tools for building the capacity of 
weak and failing states. The DRC is a weak state, and, arguably, a 
failing one. Whatever its intentions may be, the government cannot 
protect its people or its borders, is unable to provide basic services, 
and, despite the gains represented by recent elections, the state does 
not yet command the full confidence of the citizenry. The government's 
institutions are weak and impaired by decades of misrule, and civil 
society institutions are young and few.
    State weakness is a function of capacity and/or intent. During the 
tenure of Mobutu Sese Seko, the balance hung heavily on the side of 
intent; today, with the regional war brought to an end and national 
elections concluded, the balance falls more squarely, though not 
entirely, on the side of capacity. Today, the DRC lacks the physical, 
social, human, institutional and financial infrastructure needed to 
consolidate peace or pursue a democratic path that delivers to its 
citizenry.
    We know--from Afghanistan and now from Iraq--that weak states 
readily spawn conflict, undermine regional stability and threaten our 
own security for the simple reason that they offer vast ungoverned 
spaces to any and all who would exploit them. We know that weak states 
are unable to participate effectively in the world economy, and thus 
risk engaging in globalization as beggars and bystanders rather than as 
full participants. We know that weak states yield a disproportionate 
level of human suffering. Yet more than 2 years after President Bush 
cited the threat posed by weak and failing states in his National 
Security Strategy, the United States has neither a strategy nor the 
tools to address this challenge.
    What is needed is agreement--between the executive and legislative 
branches of government, and among Democrats and Republicans--on the 
contours of a U.S. strategy for weak and failing states. That strategy 
requires that we attain new capabilities across all of our foreign 
affairs agencies, fix our foreign aid system, and, even more 
challenging, that we adopt a long-term approach. War-torn societies are 
not healed in 12 months; weak and failing states cannot be rendered 
capable in 2 years. Transforming countries that, like the DRC, have 
suffered decades of misrule, political dysfunction, economic 
distortion, and unchecked violence requires that we formulate and build 
consensus around policies and strategies that extend beyond our 1-year 
budget sequence and 4-year Presidential election cycle.
    Second, our foreign aid system is broken. The legislation mandating 
our foreign aid program was written almost 50 years ago, and is 
littered with competing goals, objectives, and directives. Our 
professional development corps has been eroded, and replaced by a cadre 
of functionaries focused on managing outside contractors. We have 
witnessed the steady proliferation of aid programs, accounts, 
instruments and initiatives across multiple agencies and departments 
but have lacked a meaningful mechanism for coordination within 
government. The latest round of reform through the ``F Process'' has 
compounded and not solved these problems. Meanwhile, the vacuum created 
by the inability of the State Department or a weakened USAID to develop 
new and robust development capabilities is being filled by the 
Department of Defense, which may have good intentions and an accurate 
diagnosis of the problem, but should not, in my view, be the frontal 
face of America's support for development.
    If we want to serve our national interests and do right by the 
Congos of this world; if we want to tackle the enormous challenges 
posed by weak and failing states; if we want to promote prosperity and 
consolidate peace and security; then we need a foreign aid system that 
is both nimble and accountable. Having worked for USAID and served as a 
member of the HELP Commission, it is my view that reform on the margins 
is inadequate, and that what we require is a complete overhaul.
    This means a new Foreign Assistance Act, one that reflects the 
modern era in which we live and which provides the executive branch 
with flexibility and the legislative branch with appropriate oversight. 
Most importantly, it means a new structural alignment within 
government, one that elevates development from its current status as 
the poor stepchild of foreign policy to a top priority.
    Consider, again, the Democratic Republic of Congo. It lacks the 
infrastructure required to unite its population behind a common 
economic agenda. It has little or no capacity to provide the social 
services needed to sustain families and communities. It cannot 
presently offer the jobs needed to produce the tangible dividends that 
can counter the appeal of joining armed militias. It lacks the 
institutions that can provide transparent, peaceful, and fair means for 
resolving disputes, preventing conflict, or promoting justice.
    These gaping holes in the DRC's capacity to function as a capable, 
democratic, and peaceful state can only be filled by development 
initiatives--and the success of peace negotiations, disarmament, the 
elections and MONUC depend on our ability to fill these gaps. 
Development assistance is, in other words, necessary for our success. I 
believe that we must, therefore, reorganize our development policies 
and programs to reflect this priority status; to develop and sustain a 
core of development professionals; to ensure that a senior official has 
both the responsibility and the authority to lead within the Cabinet; 
to coordinate and harmonize our myriad development instruments; and to 
ensure that we are able to promote and invest in long-term economic 
strategies that span the lifetimes of multiple administrations.
    My personal preference is for an independent agency modeled on the 
U.K.'s Department for International Development, but there are other 
models worthy of investigation and consideration. The bottom line is 
that we must, if we believe that development is critical to our efforts 
to consolidate peace and security in the Great Lakes or any other 
region of the world, arm ourselves with a system that works.
    Third, our diplomatic investments are insufficient to the task at 
hand. Despite the stated intentions of the Department of State's 
``Transformational Diplomacy'' plan, Africa remains underserved--the 
number of diplomatic personnel serving on the continent has increased 
by only 10 since last year, and our diplomatic missions in Africa 
generally have fewer and less experienced personnel than do their 
counterparts in other more developed parts of the world. This problem 
has been and will continue to be exacerbated by the need for skilled 
diplomatic personnel in Iraq.
    The net result is that we lack the hands on capacity to work the 
issues. We do not, given our limited diplomatic coverage, have the 
ability to conduct the intensive diplomacy that is required to achieve 
durable peace agreements, to forge regional linkages, to coordinate 
with our partners and allies, or to serve the full range of our 
national interests.
    Two things are needed. First, we need to increase the number of 
qualified diplomats assigned to Africa. Second, we need to establish a 
surge capacity that allows us to augment our diplomatic capacity in 
times of crisis or opportunity, to ensure a constant presence and full-
time engagement in peace efforts, and to support the special envoys 
that have been and will continue to be assigned to the continent. Surge 
capacity could be supported by regional cells staffed by professional 
Foreign Service officers; it cannot, in my view, be sustained by visits 
from Washington officials or the occasional high-level meeting.
    Fourth, and finally, we are failing to give meaning to the 
``responsibility to protect.'' As members of the subcommittee are 
aware, the doctrine of the ``responsibility to protect'' posits that 
when a government is unable or unwilling to protect its citizens, the 
international community has a responsibility to act. It is a doctrine 
that has been endorsed by a majority of members of the U.N., but is a 
doctrine without either teeth or practical meaning.
    The DRC today is home to the worst instance of sexual violence on 
earth. Building on a pattern that was established during the Rwandan 
genocide, rape has reached epidemic proportions--literally tens of 
thousands of women, girls, and even young boys have been raped, often 
by more than one man. Most of them are raped and then tortured with 
sticks; many of them are violated in front of their families.
    As one U.N. official has said, rape in the eastern Congo is not 
about destroying the enemy--it is about destroying women. Rape is more 
than a crime against an individual; it is a violation of the family, of 
communities, of societies and of our common humanity. It degrades and 
destroys the backbone of the community, weakening its caretakers and 
most productive members while deepening the mistrust that fuels ongoing 
conflict.
    Rape is on par with every other act of violence that we have seen 
in the Great Lakes region over the last 15 years, but it has warranted 
neither the attention nor the resources that other crimes have 
engendered. This is both morally wrong and practically foolish, for 
unless and until we act on the belief that the mass rape we are seeing 
in eastern Congo constitutes a crime against all of humanity, and not 
just individual women, we can have little hope that the cycle of 
impunity will be broken.
    Solving this problem is complex and difficult, but the first steps 
we must take are clear and straightforward. The rape epidemic sweeping 
eastern Congo must be a priority: It should be a central focus of our 
humanitarian response and development efforts; it must be front and 
center in our diplomatic statements and initiatives; we need to raise 
and act upon it the U.N. Security Council; we should factor it into our 
plans for disarmament; and we must lead efforts to prosecute it as a 
crime against humanity.
    Mr. Chairman, my critique may be pointed, but it is aimed neither 
at a political party or any particular administration. It is borne of 
my strong belief that both parties, and the administrations of today 
and tomorrow, must enact sweeping policy and institutional changes if 
our aim is to consolidate peace and security in the Great Lakes region 
or, indeed, anywhere in the developing world.
    My recommendations may be bold, but after 30 years working on 
Africa, 20 of them spent on the ground, it is both easy and necessary 
to go to 30,000 feet. Our intentions may be good, and we have 
thankfully reached the point of consensus between our political parties 
that Africa is important to the United States. But our progress is not 
keeping pace with our challenges, and I believe that our ability to 
support the emergence of a majority of capable and democratic states 
united behind a common purpose depends on our ability to think bigger 
and act more boldly. We owe it to ourselves and to the people who look 
to us to lead.

    Senator Feingold. Thank you for your excellent testimony. I 
have urged greater diplomatic resources in both Kinshasa and in 
the East. Surely, I agree with you, having been in that region 
for a couple of days and seen just Goma itself, let alone the 
exceptional situation where that region interfaces with the 
other countries and crises in the area. If there ever was a 
place that was begging for a diplomatic surge, that is one. And 
it's perhaps a kind of surge I could support, unlike the one 
that----
    [Laughter.]
    Senator Feingold [continuing]. I didn't support, and don't 
support.
    Mr. Fitzcharles.

 STATEMENT OF KEVIN FITZCHARLES, COUNTRY DIRECTOR FOR UGANDA, 
                   CARE USA, KAMPALA, UGANDA

    Mr. Fitzcharles. Yes; thank you. Good morning.
    It's an honor to be here on behalf of CARE. I'd like to 
thank Chairman Feingold, Ranking Member Sununu, and the other 
members of the Senate Foreign Relations Committee, for holding 
this vitally important hearing on the Great Lakes, a region 
that should be considered one of the United States top foreign 
policy priorities.
    The continuing instability in these countries serves as a 
destabilizing factor for the entire African Continent, and, 
indeed, poses serious implications for the rest of the world.
    Excluding food aid, the DRC received only $50 million in 
U.S. humanitarian and development assistance in FY06, which 
hardly reflects a strategic commitment to a country the size of 
Western Europe, where more than 4 million lives already have 
been lost. Northern Uganda also receives inadequate assistance 
for the 900,000 people still in IDP camps and the 500,000 in 
halfway camps, trying to return home.
    All of this said, humanitarian assistance, as vital as it 
is, only addresses symptoms. To make serious, lasting progress 
in the region, the United States and wider international 
communities' attention span and depth of engagement must 
increase by an order of magnitude.
    In the interest of time, I'd like to highlight three areas 
where U.S. efforts should be concentrated. One is lasting peace 
and security; second, protection; and, third, long-term 
equitable development.
    First, regarding peace and security, there is no hope that 
the humanitarian situation can be significantly improved or 
that economic development can take hold in a region where 
insecurity constantly looms. Furthermore, improved security is 
a prerequisite for organizations like CARE in providing 
humanitarian assistance in hard-to-reach areas. For these 
reasons, the following steps must be taken to advance peace and 
security in the region.
    First, the United States must actively support the 
extension of a robust MONUC force with adequate resources to 
implement its mandate to protect civilians. MONUC provides a 
critical security presence that benefits the people in the DRC, 
humanitarian actors, and the broader Great Lakes community. A 
drawdown would be catastrophic.
    Next, the United States should also continue and scale up 
its work in security-sector reform of the DRC's military, 
ensuring that it is capable of protecting vulnerable groups.
    Third, the United States must provide greater support and 
higher level commitment to the Juba peace process, put pressure 
on all armed factions in the DRC to negotiate, and promote 
women and marginalized groups' involvement in negotiations. The 
United States could have an immediate impact in both crises by 
employing, much more vigorously and steadily, its high profile 
and diplomatic clout.
    Next, an integrated U.S.-Great Lakes policy and strategic 
plan must be articulated, adequately resourced, and 
aggressively implemented. No such overarching and coherent plan 
currently exists, to our knowledge.
    Finally, the United States must work with the Government of 
Uganda to increase the focus on the situation in Karamoja at 
the same time as steps are taken to negotiate and finalize a 
peace agreement with the LRA. The Karamoja situation is one of 
the main reasons that IDPs remain in camps, and addressing it 
must become a priority.
    Second, with respect to protection, CARE has been asked to 
address, specifically, the scourge of sexual and gender-based 
violence, a major focus of our work on the ground.
    As detailed in our written testimony, CARE research on SGBV 
in the Great Lakes demonstrates not only the prevalence of 
these atrocities in the midst of armed conflict, but also a 
frightening trend toward the use of sexual violence in the 
wider culture. The idea that being raped is normal is 
increasingly taking hold.
    The following steps can and must be taken to address the 
current situation. The U.S. Government should provide increased 
and focused assistance toward SGBV prevention and response 
through support for community-level initiatives to raise 
awareness and action, and expansion of access to justice, 
medical care, and psychosocial support, especially in conflict-
affected areas.
    Second, the United States should support Great Lakes 
countries' capacity for implementing national, regional, and 
international instruments addressing SGBV. All governments in 
the region have existing laws and policies in place on SGVB; 
however, their ability to enforce them is weak, and the 
resources to do so are lacking.
    Finally, the U.S. Government should pass the International 
Violence Against Women Act, which I understand will be 
introduced soon by distinguished members of the committee. This 
bill would be a step forward in U.S. leadership on the problem.
    Third, on long-term development, implementing peace 
agreements, and preventing countries in the region from sliding 
back into war will require constant and robust engagement for 
decades to come. The following steps will be essential.
    The United States must dramatically increase its 
humanitarian and development assistance to the region. The 
current level of U.S. assistance does not match the scope of 
the need and the strategic importance of the region. It cannot 
be expected to make a meaningful impact.
    Second, U.S. assistance must be comprehensive and well 
phased, aimed at both immediate needs and longer term support. 
In other words, not only the rebuilding of infrastructure and 
delivery of basic services, but also serious investments in 
human rights, democracy, rule of law, and reconciliation.
    Third, the United States should urge the Governments of 
Uganda and the DRC to take meaningful steps to address economic 
and political disparities in marginalized areas, which has been 
a driver of instability in the region.
    In conclusion, securing peace in the Great Lakes is a 
process, not an event. Major and sustained investments of 
political and economic capital by the United States could turn 
the tide toward peace. This window of opportunity must be 
seized, and must be seized now.
    Thank you very much.
    [The prepared statement of Mr. Fitzcharles follows:]

 Prepared Statement of Kevin Fitzcharles, Country Director, CARE USA, 
                            Kampala, Uganda

    I would like to thank Chairman Feingold, Ranking Member Sununu, and 
the other members of the Senate Foreign Relations Committee and 
subcommittee on African Affairs for holding a hearing to explore the 
U.S. role in addressing longstanding crises in this critical region of 
the world. It is an honor to be here on behalf of CARE and to share the 
perspective of an organization which has provided humanitarian 
assistance and development programming in the Great Lakes region for 
decades.
    I currently serve as the Country Director for CARE in Uganda, and 
am pleased to provide my view point on the situation in the north of 
that country. However, I would like to note that I am also here today 
to represent all of my colleagues in CARE's Great Lakes country offices 
in the Democratic Republic of the Congo (DRC), Rwanda, and Burundi and 
hope to do justice in addressing our collective concerns about this 
vast and troubled region.
    CARE has been operational in northern Uganda since 1979--
intensively in the Acholi region since 2003--and in the DRC most 
recently since 2002. Our programs in the Great Lakes region focus on 
food security, health, HIV/AIDS prevention, education, conflict 
resolution, microfinance, and community development and natural 
resource management. We do what we can--along with our colleagues in 
other humanitarian and development organizations--to address the 
enormous need of the people in these countries and the near total 
absence of basic services and livelihood opportunities that they face 
due to years of conflict and resulting underdevelopment.
    The numbers of displaced are so large and the degree of suffering 
so intense that the figures almost become numbing; an estimated 4 
million dead in the DRC due to the conflict, 2 million displaced in the 
north of Uganda due to the terror campaign of the Lord's Resistance 
Army (LRA), and hundreds of thousands of refugees relegated to squalid 
camps across the region. However, we must stop and remind ourselves to 
put a face on these numbers, to remember the human scope of the ongoing 
political and security situation in these countries. The depravity and 
suffering are real for every child who does not have access to basic 
health care, for every woman who fears being raped as she travels long 
distances through insecure areas to collect water and for entire 
communities whose futures have been irrevocably altered by years of 
terror and abandonment.
    Both the situations in the DRC and northern Uganda require a level 
of humanitarian and development assistance that match the scope of the 
crises. However, only a fraction of the needs are addressed, reflecting 
the low global priority of ending the suffering in the region.
    We thank the U.S. for what it has given to address these 
humanitarian situations and underdevelopment in the Great Lakes 
countries, but note that in order to have a meaningful impact in terms 
of lives and increased security, much more will be required.
    Excluding P.L. 480 Title II food aid, the DRC received only $50 
million in humanitarian and development assistance in FY 2006, precious 
little to begin to address the enormous humanitarian and development 
challenges in one of the most underdeveloped and unstable countries in 
the world; a country the size of Western Europe upon which the security 
of the entire Great Lakes region largely hinges. The proposed funding 
level in the administration's request to Congress in FY 2008 is even 
lower, hardly reflecting the compelling nature and strategic rationale 
for assistance to the DRC.
    U.S. foreign assistance in Uganda has largely been geared toward 
HIV/AIDS prevention and relief through the PEPFAR program, and has not 
been sufficiently focused in other critical areas including conflict 
resolution, peace-building and the strengthening of governance and key 
institutions. Inadequate assistance levels are provided in northern 
Uganda to deal with one of the largest displacement situations in the 
world. Humanitarian assistance funding for the 900,000 people still in 
IDP camps remains inadequate and very little has been directed to 
assisting those trying to return home. Currently, 500,000 IDPs are 
residing in halfway resettlement areas, moving back and forth to the 
camps to access basic services like water, health care, and education 
that are not available outside of them. Very little planning in terms 
of providing the right transitional assistance to returnees has been 
conducted, jeopardizing lives and the success of the peace process.
    All that said, humanitarian assistance--as vital as it is--only 
addresses symptoms; symptoms that have been widespread and evident for 
far too long. The conflicts in northern Uganda and the eastern DRC are 
distinct from each other and require different solutions to the unique 
underlying challenges they pose. However, there are commonalities that 
I would like to highlight today, particularly regarding the role that 
the United States has to play in ending these longstanding conflicts. 
To make serious, lasting progress in the region, the U.S. and wider 
international community's attention span and depth of engagement must 
increase by an order of magnitude. Achieving peace agreements or 
national elections are vitally important signs of progress but not at 
all the end of the road. The following must be addressed both 
immediately and over a very long haul:

  <bullet> Security and Lasting Peace--People need to be assured they 
        can live, work, and access services and markets in a secure 
        environment;
  <bullet> Protection--People need more capable and professional 
        policing and access to justice, as well as much stronger 
        medical care, psychosocial support, and child and women 
        protection strategies; and
  <bullet> Long-Term, Equitable Development--People in the long-
        neglected regions of the eastern DRC and northern Uganda need 
        competent, transparent, and accountable governance and major 
        investments over time in infrastructure, basic services, and 
        economic opportunity.

    Let me address each of these in turn, underscoring the importance 
of regional approaches throughout. Resources, violent conflict, and 
insecurity all travel across borders in the Great Lakes region and 
integrated, regional planning, and interventions by all stakeholders 
are essential.
                           peace and security
    Security is critical in protecting human lives and preventing more 
displacements. There is no hope that the humanitarian situation can be 
significantly improved or that economic development take hold in the 
region as long as conflict and resultant insecurity reign. Furthermore, 
improved security is a prerequisite for organizations like CARE in 
providing humanitarian assistance in hard-to-reach areas. This issue is 
highlighted by the recent spike in insecurity in the North Kivu region 
of the DRC due to the activities of General Laurent Nkunda, which has 
caused NGOs and some U.N. agencies to evacuate many areas.
    For these reasons, a drawdown in the U.N. Peacekeeping force in the 
DRC--MONUC--would be catastrophic. Though stretched thinly across a 
vast region, MONUC provides a critical security presence that benefits 
the people in the DRC, humanitarian actors and the broader Great Lakes 
community. We would encourage the U.S. to actively support the 
extension of a robust MONUC force with adequate resources, capacities, 
and accountabilities to implement its mandate to protect civilians.
    The U.S. should also continue and scale up its work in security 
sector reform of the DRC's military (FARDC)--ensuring that they are 
adequately trained and paid, so that they are capable of providing 
security in the violence-racked East and do not commit atrocities 
against the local population themselves.
    In northern Uganda, a growing conflict between the Ugandan military 
and Karamoja cattle rustlers is causing further deterioration to 
regional security and is one of the reasons that nearly 900,000 million 
people remain in IDP camps. Addressing the Karamoja situation must be 
viewed as an urgent security priority and must be done at the same time 
as steps are taken to negotiate and finalize a peace agreement with the 
LRA.
    The U.S. could have an immediate impact in both crises by employing 
its high profile and diplomatic clout. To date, U.S. attention to both 
of these conflicts has been inconsistent at best, without adequate 
attention to the regional dimension of these crises or a focus on 
addressing the underlying causes that drive them. Infrequent visits by 
U.S. policymakers, resulting in brief talks and weak public statements, 
have done little to convince actors in the region that the U.S. 
considers these crises priorities or will take any meaningful actions 
to address them.
    A consistent demonstration of interest and commitment to the Juba 
peace process would have a tremendous impact on the likelihood of the 
talks resulting in an agreement. The U.S.'s influence over all actors 
involved, including the Government of South Sudan and the Government of 
Uganda, is a resource that should not be discounted and one that should 
be utilized to the maximum extent. Recent developments suggesting that 
the Comprehensive Peace Agreement (CPA) between the Government of South 
Sudan and the Sudanese Government is in jeopardy--possibly resulting in 
the collapse of the Juba Peace Talks--highlight the fragile nature of 
the peace process and underscore the need for third parties to maintain 
consistent engagement to ensure that the entire process does not 
unravel.
    The U.S. also has a critical role to play in ensuring that the 
newly elected government of the DRC and its neighboring countries find 
and abide by a resolution to the ongoing conflict in the eastern part 
of the country, including how to deal with the armed groups that 
continue to undermine stability in the region. The U.S. has engaged in 
the Tripartite Plus process, and these regularized discussions must 
continue well into the future to move toward a durable solution to 
longstanding tensions between the Great Lakes countries, including 
competition over natural resources.
    We applaud the decision by the State Department to appoint a Senior 
Advisor to the Assistant Secretary on Conflict Resolution, tasked with 
following the situation in the Great Lakes. We encourage that this 
position be accompanied with increased resources to support ongoing 
peace talks in the region as well as attention at the highest levels of 
in the Department of State. Furthermore, we encourage the State 
Department to ensure that its approach be regional in nature given the 
connections between Sudan, the LRA, Uganda, Rwanda, and the DRC and its 
armed factions. Failing to focus on the whole picture, or only parts of 
it, will seriously compromise the U.S. and the international 
community's efforts to address any one of these situations. This high 
degree of interconnectedness means that if there are weak links in the 
diplomatic chain, it will surely break.
    On a more local level, vulnerable groups, especially women, must be 
provided opportunities to engage in peace and reconciliation 
initiatives. Women are often most adversely affected by conflict, due 
to the fact that conflict tends to empower male-dominated armed groups, 
leads to abuses of authority and increases the labor burdens placed on 
women, who are often responsible for a majority of the activities that 
families need to survive.
    For this reason, CARE integrates a gender focus in its programs. In 
northern Uganda, for example, CARE is working to harness the potential 
of women in doing everything from reintegrating formerly abducted women 
and child mothers into communities to calling for peace negotiations. 
However, despite their role as one of the most vulnerable and conflict-
affected groups, women have not had a significant role in the peace 
negotiations. Losing the perspective of the most impacted groups means 
that many of their most deeply felt concerns may not be addressed in 
the peace process. The U.S. and others in the international community 
should work with all parties to negotiations to ensure that local women 
are represented in peace talks and that resources are provided for 
local level peace and reconciliation initiatives.
Summary of Peace and Security Recommendations
  <bullet> Support the extension of MONUC with adequate resources, 
        capacities, and accountabilities to implement its protection 
        mandate while scaling up security sector reform efforts with 
        the DRC military.
  <bullet> Support and engage with, consistently and at a high level, 
        the Juba Peace Process and the Tripartite Plus Process, as well 
        as efforts to deal with Uganda's ongoing Karamoja conflict.
  <bullet> Provide adequate resources and weight to the new Senior 
        Advisor on Conflict Resolution in the Great Lakes ensuring that 
        U.S. diplomacy in the region responds effectively--and in 
        integrated fashion--to the cross-border issues fueling 
        conflict.
  <bullet> Provide resources for local level peace and reconciliation 
        initiatives in which women and other marginalized groups are 
        adequately represented.
                               protection
    Security must be understood in broader and more holistic terms than 
merely protection from violence perpetrated by armed groups. Security 
depends not only on military and policy prescriptions, but on people's 
ability to make free choices and exercise control over their lives.
    Unfortunately, protection is a long called-for priority in the 
Great Lakes region but, to date, not more than a dream for vast numbers 
of conflict-affected people in the region. The range of rights abuses 
against the population in the eastern DRC and northern Uganda is 
extensive. In addition to the millions who have died as a direct or 
indirect consequence of violence and the hundreds of thousands who 
continue to be displaced, the abduction and recruitment of children 
into armed groups has been another tragic characteristic of both 
conflicts. In northern Uganda the number of abductions since the onset 
of conflict is estimated at 25,000,\1\ while UNICEF has recently noted 
that increased fighting in the eastern DRC has been accompanied by 
forced recruitment of children by all groups.\2\
---------------------------------------------------------------------------
    \1\ Report of the Special Representative of the Secretary-General 
for Children and Armed Conflict, 13 August 2007, (A/62/228).
    \2\ DRC, North Kivu Crisis--``Humanitarian Situation and UNICEF 
Response,'' December 2006-October 2007, UNICEF, 18 October 2007.
---------------------------------------------------------------------------
    For purposes of this hearing, CARE has been asked specifically to 
address the scourge of sexual and gender-based violence (SGBV), a major 
focus of our work on the ground. We welcome the recent surge in 
attention to this long-ignored issue, including the cover story on SGBV 
in the DRC that appeared in the New York Times earlier this month \3\ 
and hope that this renewed focus on the issue and the resultant public 
outrage will translate into meaningful and sustained action on the part 
of donor governments and the international community at large.
---------------------------------------------------------------------------
    \3\ ``Rape Epidemic Raises Trauma of Congo War,'' New York Times, 
October 7, 2007, http://www.nytimes.com/2007/10/07/world/africa/
07congo.html?_r=1&hp&oref=slogin (last accessed October 20, 2007).
---------------------------------------------------------------------------
    October marks 7 years since the U.N. Security Council adopted 
Resolution 1325, declaring its intention to effectively address 
violations of women's human rights in conflict situations. Yet in many 
parts of the Great Lakes region today, sexual- and gender-based 
violence remains one of the gravest manifestations of the insecurity 
facing ordinary people. In the case of eastern DRC, the rates of these 
violations have risen to catastrophic levels and their increasing 
regularity and brutality over time is well documented.\4\ Armed groups 
in eastern Congo are effectively using sexual violence as a weapon of 
war and destruction, inflicting grievous physical, psychological, and 
social harm on women, children, and entire communities.
---------------------------------------------------------------------------
    \4\ Information on the atrocities can be found in the UNICEF-V-day 
initiative ``Stop Raping Our Greatest Resource: Power to Women in the 
DRC'' http://www.vday.org/contents/drcongo (last accessed October 20, 
2007).
---------------------------------------------------------------------------
    According to the U.N. Population Fund (UNFPA), over 2,000 cases of 
rape have been reported in North Kivu between January and September of 
this year alone.\5\ The United Nations Children's Fund (UNICEF) further 
reports 18,000 cases of rape reported in 2006 in three Congolese 
provinces, including North Kivu.\6\ The estimate is that children 
represent at least 31 percent of the victims.\7\ These figures, as 
outrageous as they are, mask the true scope of the problem as they do 
not take into account the many violations that go unreported for a 
variety of reasons, including stigmatization of victims by communities, 
a lack of redress for survivors, and an environment of impunity. As one 
CARE health worker in Maniema province put it to a colleague there, 
``Women who experience rape or sexual violence are punished three 
times: Once by the violence itself, once by their communities if they 
dare complain, and a third time when they see the culprits walking the 
street.''
---------------------------------------------------------------------------
    \5\ ``DRC: Rape Cases up by 60% in North Kivu''--Office for the 
Coordination of Humanitarian Affairs (OCHA) News and Analysis online 
October 11, 2007. http://www.irinnews.org/Report.aspx?ReportId=74767 
(last accessed October 20, 2007).
    \6\ ``DRC: Sexual Violence the Scourge of the East'' (OCHA) News 
and Analysis online, October 16, 2007. http://www.irinnews.org/
Report.aspx?ReportId=74801.
    \7\ Briefing by John Holmes, U.N. Emergency Relief Coordinator, to 
the U.N. Security Council, September 11, 2007. http://
ochaonline.un.org/AboutOCHA/Organigramme/TheUnderSecretary
General/SpeechesandStatements2007/tabid/1156/Default.aspx.
---------------------------------------------------------------------------
    Our own research in the Great Lakes region has revealed the 
widespread prevalence of this crime against humanity. For example, a 
recent survey that CARE conducted in the eastern Congolese province of 
Maniema revealed that 70 percent of victims of sexual violence surveyed 
reported that they knew other women who had undergone similar 
experiences and that 80 percent of these victims said that they had 
been gang-raped.\8\ While much of the sexual violence in this area is 
perpetrated by armed men associated with the Mai Mai, the Congolese 
Army, the FDLR and militias loyal to Laurent Nkunda, CARE research also 
indicates that sexual violence committed by civilians is now on the 
rise, demonstrating a disturbing trend toward the inculcation of sexual 
violence as a phenomenon into the wider culture. This is particularly 
alarming, as the end of insecurity itself will not bring about a 
cessation to this heinous crime. The idea that ``being raped is 
normal'' has taken hold in an environment where outright war has 
transitioned to banditry, and lawlessness, and impunity reign.
---------------------------------------------------------------------------
    \8\ CARE Survey undertaken Nov. 8-15, 2006, in southern Maniema 
province.
---------------------------------------------------------------------------
    Rampant sexual- and gender-based violence against women and girls 
is also alarmingly prevalent in northern Uganda. Even at this moment of 
relative peace, less than 20 percent of defilement cases are taken to 
the police because of a lack of a functioning judicial system in the 
region.\9\ A recent survey of local perceptions of the peace process in 
northern Uganda indicates that many women fear that the high levels of 
gender-based violence that characterized life in displacement will 
continue after resettlement.\10\
---------------------------------------------------------------------------
    \9\ ``CARE Baseline Survey for Women's Empowerment Project,'' 
September 2007.
    \10\ ``Report of Consultations on Reconciliation and Accountability 
Held With Communities in Acholi, Lango, Teso and West Nile Sub-
Regions'' August 2007, Civil Society Organizations for Peace In 
Northern Uganda (CSOPNU).
---------------------------------------------------------------------------
    All this calls for an increased emphasis on programs focused both 
on prevention and response to sexual- and gender-based violence. CARE's 
experience with gender-based violence programming in the region 
underscores the need for strong awareness-raising and educational 
efforts to tackle social norms around gender roles, identity, and 
violence, as well as for initiatives that involve both men and women in 
networks of activism against gender violence. Also essential is the 
expansion and improvement of locally accessible medical, psychosocial, 
and legal services and better coordination among the entities offering 
these services.
    Finally, there is an urgent need to support stronger implementation 
by national governments of national, regional, and international legal 
commitments, including through inclusive action planning and ongoing 
learning and monitoring of progress, in order to improve and expand 
prevention efforts, basic service provision, and access to justice and 
accountability for such crimes. We note the adoption in November 2006 
of the ``Great Lakes Protocol on the Prevention and Suppression of 
Sexual Violence against Women and Children'' in particular, and 
encourage its urgent implementation. At an international level, we note 
the need for the U.N. Security Council to show leadership on this issue 
by developing a mechanism, such as a working group, to monitor grave 
violations of women's human rights such as SGBV in conflict.
    We are pleased that distinguished members of this committee will 
shortly introduce the International Violence against Women Act (I-
VAWA), which seeks to establish mechanisms to aggressively address GBV 
in developing countries in both conflict and peacetime settings. CARE 
supports this legislation as a critical first step on the U.S. 
Government's part. We would also note that addressing GBV in the Great 
Lakes will require tackling the larger challenges in the region that 
the other panelists here today and I have outlined, including: Rampant 
insecurity; a near total absence of legitimate, accountable government 
institutions; a culture of impunity; the marginalization of women and 
the resulting abject poverty that so many people in these countries 
face.
Summary of Protection Recommendations
  <bullet> Support national government capacity and accountability for 
        implementing national laws and regional and international 
        instruments addressing women's human rights and, particularly, 
        national action plans and initiatives aimed at addressing SGBV.
  <bullet> Increase funding to meet survivors' immediate needs, 
        including the full range of essential medical care, legal aid, 
        and psychosocial support, while investing in national and 
        decentralized institutions charged with providing access to 
        justice and key social services.
  <bullet> Increase support to community-based awareness raising and 
        dialog on social norms that contribute to SGBV and to 
        interventions that reduce women's vulnerability to over time--
        e.g., through greater access to education, inheritance rights, 
        economic livelihoods, and political empowerment.
                    long-term, equitable development
    Ending the instability and meeting immediate- and short-term 
humanitarian assistance and protection needs in the region can only be 
the first part of a long-term strategy to ensure a durable peace. 
Implementing peace agreements and preventing countries in the region 
from sliding back into war will require consistent and robust 
engagement in years and even decades to come to address the underlying 
drivers of insecurity, build legitimate, accountable, and effective 
governance down to provincial and local levels, and strengthen systems 
and capacities for basic service delivery for all.
    Of course, a balanced approach is required. In the DRC, the U.S. 
should provide substantial, long-term funding and technical assistance 
to strengthen governance, including service delivery, at national and 
decentralized levels, but should couple those efforts with ongoing 
humanitarian and development funding to assist local populations as the 
government of the DRC develops its own capacity to do so. Focusing on 
governance and institutions without simultaneously addressing immediate 
needs would not be a sound strategy, nor would focusing only on current 
needs to the exclusion of meaningful efforts to set up the right 
institutions and strengthen capacities for the DRC to govern itself.
    Similarly, a ``peace dividend'' will have to accompany any 
agreement that is reached to end the longstanding conflict in northern 
Uganda. A peace process will only be as good as the improvements that 
it brings to people's lives; therefore ensuring that people have 
something to go home to is of paramount importance. Major efforts to 
rehabilitate infrastructure and provide basic services to IDPs as they 
return home must be the central focus for both donors and the 
Government of Uganda, and plans for these activities must be prepared 
now in anticipation of a peace agreement, not after one is struck. Many 
IDPs have already begun to return home, encouraged by progress in the 
peace talks, so it is critical that this assistance begin to be phased 
in.
    Furthermore, the U.S. must play a role in ensuring that the 
Government of Uganda makes efforts to even out the levels of economic 
development and service provision between the north and the more 
prosperous south of the country. This inequality in wealth and 
opportunity was one of the underlying causes of the conflict and must 
be addressed head on to prevent the resurgence of fighting.
Summary of Development Recommendations
  <bullet> Provide comprehensive, well-phased assistance for 
        humanitarian and development needs in both countries, while 
        simultaneously supporting governance and institution-building.
  <bullet> Support rehabilitation of amenities and services for 
        returning displaced persons in anticipation of peace 
        agreements.
  <bullet> Urge the Government of Uganda to move beyond rhetorical 
        promises in addressing the longstanding neglect and economic 
        disparities between northern Uganda and the rest of the country 
        by dedicating significant resources to do so.
  <bullet> Ensure that state-building in the DRC includes a major focus 
        and major investments in strengthening governance and service 
        delivery in the East.
                               conclusion
    There is hope in the Great Lakes region for movement forward in 
ending the complex and horrific conflicts that have racked the region 
for decades. Both the situations in northern Uganda and the eastern DRC 
stand at a critical juncture in which effort on the part of the 
international community--and in particular the U.S. Government--could 
turn the tide toward peace. This window of opportunity should be seized 
by employing both diplomatic and foreign assistance resources in full 
force, and doing so with a regional mindset that ensures integration 
across country-level strategies, plans, and interventions.
    In closing, I would note that peace in the Great Lakes will not 
come in a single moment--the conflicts in these countries will not be 
concluded by successful elections or the signing of a peace agreement. 
Securing peace is a process, not an event, and the U.S. Government and 
its partners in the international community should view it as such and 
orient their actions toward a long-term, consistent and robust 
engagement across the Great Lakes in order to realize a durable 
solution to the trouble the has plagued this critical region.

    Senator Feingold. Thank you, Mr. Fitzcharles, for your 
testimony and your work. And let me just underscore this 
phenomenon of sexual violence, particularly in eastern Congo, 
is easily one of the most sickening things I have ever seen, 15 
years on this committee, reviewing crises all around the world. 
This needs far, far more attention.
    Mr. De Lorenzo.

  STATEMENT OF MAURO DE LORENZO, RESIDENT FELLOW, FOREIGN AND 
    DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE, 
                         WASHINGTON, DC

    Mr. De Lorenzo. Chairman Feingold, thank you very much for 
the opportunity to appear here today, and thank you, also, for 
your sustained attention to this region over many, many years.
    In the interest of time, I'm going to summarize, and would 
ask that my full testimony be submitted for the record.
    And, before talking about some of the outstanding 
challenges in eastern Congo, I want to emphasize that, contrary 
to conventional wisdom, the prospects for sustained peace and 
security in the Great Lakes region today are actually better 
than they have been at any time since the mid-1980s. That's not 
always apparent, because of the horrific things that continue 
to go on. And the U.S. engagement across two administrations 
has played an important role in this fairly remarkable 
turnaround.
    Rwanda, today, slightly less than 15 years after the 
genocide, is at peace, it's become a model of sound economic 
and business policy, good governance, and the use of aid. The 
country's leaders often have less confidence in the durability 
of their own achievements than they ought to, which causes them 
to exercise extreme caution about the political and the media 
space. But, I think, as they gain more confidence that press 
and political freedoms won't be used by extremists to reconnect 
with the population, we can expect, or I hope we can expect, to 
see more liberalization in the years to come.
    Most significantly, I think, for peace in the region, 
Rwanda made a strategic decision in 2004 to shift to a more 
pragmatic foreign policy, emphasizing dialog with its 
neighbors, and deemphasizing the use of force as a means to 
settle its differences.
    Burundi is enjoying a fragile, but real, peace, bar one 
party, and this is the place, also, I think, to single out 
Congressman Wolpe's Burundi leadership training program, which 
is supported by USAID, and which has made a real difference, 
most recently this summer, in bringing together everyone in 
Burundi to talk about that country's problems. Just a few years 
ago, it would have been impossible to imagine that that would--
that that could take place. It underscores that nongovernmental 
U.S. action or U.S. engagement in this region is as important 
as official action.
    Congo is not fully at peace, but, thanks to massive 
international support, including very substantial U.S. support 
from MONUC, democratic elections there were held in 2006. 
However, for many years to come, the country is going to remain 
disordered and its public institutions prone to human rights 
violations, even if the international community remains 
substantially engaged. If the international community 
disengages, most of the gains that have been made since 2003 
will be reversed.
    The most serious threat to peace in Congo is to be found in 
Kivu, as has been the case since 1960. And the current standoff 
there between government forces and General Nkunda does, 
indeed, have the possibility to derail the Congolese transition 
and, in fact, erase the gains of the entire region. But if the 
crisis is managed carefully, I believe this doesn't have to 
happen.
    I'll say a few words, I think--or a few caveats, really--
about Congolese Tutsi and the Nkunda problem in North Kivu. He 
justifies his refusal to join the national army with an appeal 
to fears for the safety of Congolese Tutsi in eastern Congo. If 
past is prologue, the fears of this community are justified.
    And General Nkunda receives substantial support from his 
community precisely because they're afraid that incidents of 
killing, expropriation, and expulsion that have happened over 
the years would be repeated. In other words, the current crisis 
in eastern Congo is political, it's related to the architecture 
of security forces in the East, and it's not about an 
individual.
    Even if you were to sideline Nkunda, to arrest him, or if 
he were to be killed or defeated, the people that give him 
support would continue to fight, because they feel they're 
fighting for their own survival. There are many commanders who 
would step up to take his place.
    Neither would putting pressure on President Kabila solve 
their problem. He's not the cause of the problem. The problem 
is a political one, in that he's too weak to rein in the 
extremist politicians who have, for very many years, called for 
the expulsion of Congolese of Rwandan origin, both Hutu and 
Tutsi. These hardliners are urging a military solution on the 
President. And, because his base of political support in Congo 
is so narrow, confined to Kivu and Katanga and some other 
Swahili-speaking parts of the country, he can't lose Kivu 
politically and maintain a secure grip on power.
    So, you have a situation where, ironically, it's the very 
democratic process of 2006 that has produced a political 
constellation that has strengthened political extremists in 
Kivu and made it extremely difficult for Kabila to act against 
their priorities and wishes. Nkunda and his supporters are 
aware of this, and it strengthens their resolve not to disarm 
and not to trust the government.
    For this reason, my view is that the conditions are 
currently not ripe for a negotiated political settlement of the 
standoff in North Kivu. And they won't be ripe until Kabila has 
a broader base of political support in the DRC, potentially by 
allying himself with other forces in the country. U.S. and 
MONUC policy should focus on managing the crisis to contain the 
risk of a return to war in the region until a political 
solution is achievable, and also focus on the urgent 
humanitarian needs.
    I'll run through four scenarios, all of which are 
unattractive.
    In one, the Congolese Army attacks Nkunda's forces and is 
defeated. In that scenario, Kabila would be fatally weakened 
and may lose his grip on power. MONUC could also take 
casualties and the U.N. could find it, across Africa, more 
difficult to field large-scale peace operations.
    If Kabila gives in to Nkunda's demands through a negotiated 
settlement--dropping charges against him, for example--
similarly, he could be seen as weak and lose the support of his 
base, and you could see a destabilizing competition for 
political power.
    Similarly, if Nkunda gives in to Kabila's demands, he would 
probably be sidelined by his own officers and supporters before 
any such deal could be put in effect, and they have the 
capacity to continue fighting in the East for a number of years 
to come.
    The most dangerous scenario is one, which is currently 
being contemplated, where Nkunda is defeated militarily by a 
joint Congolese Army/MONUC operation. If Nkunda is defeated, so 
long as the FDLR, the Rwandan rebels and extremist Mayi-Mayi 
militias are still a force to be reckoned with in Kivu, they 
will likely attack Banyarwanda civilians, an expulsion of those 
civilians, or worse, would be a predictable consequence. This 
scenario might also signal the reemergence of the FDLR as a 
military force on Rwanda's border.
    The ENOUGH Project and other observers have already 
documented cases of known FDLR units cooperating with Congolese 
Army units in recent months. There's some debate about whether 
that has official sanction.
    Rwanda could be forced to act under such a scenario, even 
though it's actually not in their national interest to do so 
and they have no interest in doing so. In this connection, it's 
important to recall that the FDLR has been designated a Foreign 
Terrorist Organization by the Department of State and should 
not be treated as if they're just any other party to this 
conflict. They killed Americans in Uganda in 1998.
    A caveat that applies to all of these scenarios that 
involve military action, particularly where MONUC through 
logistical support, is enabling the Congolese Army to be more 
active and have more control over the countryside. A 
predictable consequence of that is an increase in sexual 
violence, since, as we know, those forces are one of the main 
perpetrators. Similarly, support from MONUC that enables the 
FDLR and the Mayi-Mayi to roam more freely across the 
countryside will also result in more sexual violence against 
women, not less.
    I have a number of other things to say about the role of 
the United States, but I think I'll just sum up by saying that 
a pragmatic U.S. and international policy recognizes that North 
Kivu was a problem to be managed for some time to come by 
promoting concrete intermediate confidence-building measures 
and using U.S. diplomatic and military leverage to deter a 
return to all-out war while managing some of the humanitarian 
challenges.
    Thank you very much.
    [The prepared statement of Mr. De Lorenzo follows:]

 Prepared Statement of Mauro De Lorenzo, Resident Fellow, Foreign and 
 Defense Policy Studies, American Enterprise Institute, Washington, DC

    Chairman Feingold, Senator Sununu, distinguished members of the 
subcommittee, thank you for the opportunity to testify before you 
today.
                        a remarkable turnaround
    Contrary to conventional wisdom, the prospects for sustained peace 
and security in the Great Lakes region are actually better today than 
they have been at any time since the mid-1980s. Moreover, quiet U.S. 
engagement there across two administrations has played an important 
role in this remarkable turnaround.
    In the 1990s, a series of interlocking crises in Congo, Rwanda, 
Burundi, and Uganda produced some of the worst horrors anywhere in the 
world since the Second World War.
    Today, 10 years later, Rwanda is not only at peace, it has become a 
model of sound economic and business policy, good governance, and the 
judicious use of aid. The country is making slow but steady progress on 
reconciliation. The country's leaders often have less confidence in the 
durability of their achievements than they ought to, causing them to 
exercise extreme caution about the political and media space. As they 
gain confidence that the proponents of the ideology that gave rise to 
the genocide of 1994 will not be able to use press and political 
freedoms to reconnect with the population, we can expect to see further 
liberalization in the years to come. Most significantly for peace and 
security, Rwanda made a strategic decision in 2004 to shift to a more 
pragmatic foreign policy by deemphasizing the use of force and 
attempting to resolve differences with neighbors through dialog. As a 
result, bilateral relations Rwanda on the one hand, and Uganda, Congo, 
and Burundi on the other, have never been better.
    Burundi is also enjoying a fragile but real peace, bar one faction 
of the most extreme party to that conflict, the Palipehutu-FNL. The 
credit for this progress is due to Burundian political actors 
themselves (with crucial support from South African mediators and the 
South African military), but this is the place to single out the work 
of former U.S. Congressman Howard Wolpe and his colleagues at the 
Woodrow Wilson Center, whose Burundi Leadership Training Program, 
supported by USAID's Office of Transition Initiatives, created a unique 
space for dialog that helped Burundians from opposing sides to build 
confidence in one another. Nongovernmental U.S. engagement is as 
fundamental in this region as official action.
    Congo is not fully at peace, but, thanks to massive international 
support--including very substantial U.S. support to MONUC\1\ --
democratic elections were held there in 2006. When assessing Congo's 
progress, it is useful to bear in mind that the country has never been 
well-ordered nor able to fully administer its territory. Its military 
has always been a predatory force. The success of interventions must 
therefore be judged using realistic yardsticks. For many years to come, 
the country will remain disordered and its public institutions prone to 
human rights violations, even if the international community remains 
substantially engaged. If the international community disengages, most 
of the gains that have been made since 2003 will be reversed.
---------------------------------------------------------------------------
    \1\ MONUC is the U.N. Mission in the Democratic Republic of Congo.
---------------------------------------------------------------------------
    The most serious threat to peace in Congo is to be found in Kivu--
as has been the case for more than 40 years. The current standoff there 
between the Congolese Government and forces led by Laurent Nkunda has 
the potential to derail the Congolese transition and erase the gains of 
the entire region. But if the crisis is managed carefully, this does 
not have to happen. The United States has an important role to play 
through its management of the Tripartite Plus process and through its 
ability to help shape the mission and doctrine of MONUC.
    It is important that the remaining obstacles to peace, serious as 
they are, not obscure the basically positive trends. The United States 
has played a helpful role in this evolution, from the mediation efforts 
of the late 1990s to today's Tripartite Plus framework. I expect that 
the United States will continue to play an important role, particularly 
if any increases in funding are targeted at key areas where they will 
have the most immediate impact: Security-sector reform and DDR, 
regional economic integration, the Tripartite Plus process, and the 
continuation of MONUC's mission.
        congolese tutsi and the ``nkunda problem'' in north kivu
    Brigadier General Laurent Nkunda, a Congolese Tutsi officer who 
formerly served as a commander in the RCD \2\ rebel movement, refused 
to be integrated into the Congolese Army after the transitional 
government came into being in 2003. He controls territory in North Kivu 
and maintains a substantial military force whose capacities, by some 
accounts, exceed that of the Congolese Army itself. He justifies his 
refusal to join the national army--and accept the consequent dispersal 
of his forces around the country--with an appeal to fears for the 
safety of Congolese Tutsi in eastern Congo,\3\ both from attacks by the 
Rwandan FDLR rebel group--the remnants of the militias that carried out 
the genocide in Rwanda in 1994, who remain ensconced in the hills and 
valleys of Kivu--and from Congolese Mayi-Mayi militias, which are 
linked to ethnic extremists within the Congolese political 
establishment, who have always denied that Banyarwanda\4\ can be 
Congolese. Many Mayi-Mayi militias in Kivu have also refused to disarm 
and integrate into the national army, despite orders to do so.
---------------------------------------------------------------------------
    \2\ The RCD is the Rassemblement Congolais pour la Democratie, the 
rebel movement that controlled eastern Congo between 1998 and 2003. It 
is now a political party that is represented in the Congolese 
legislature.
    \3\ It is important to be aware of the distinction between 
Banyamulenge and Congolese Tutsi. The Banyamulenge community of South 
Kivu is a subset of the Congolese Tutsi, with a distinct history and 
culture. Laurent Nkunda is a Congolese Tutsi from North Kivu, and thus 
not a member of the Banyamulenge community, even though some 
Banyamulenge officers serve under him. The two groups are however 
subject to the same forms of political exclusion and physical attack, 
though the Banyamulenge response has tended to be much less organized 
than that of Congolese Tutsi in North Kivu.
    \4\ The term ``Banyarwanda'' refers to the ethnic group, not the 
citizenship. ``Rwandans'' refers to citizens of Rwanda only. 
``Banyarwanda'' includes members of the broader ethnic group that lives 
mostly in Rwanda, but also in Congo and Uganda. In this case, 
Banyarwanda refers to Congolese Banyarwanda, both Hutu and Tutsi.
---------------------------------------------------------------------------
    If past is prologue, the fears of the Congolese Tutsi community are 
justified. The recent violent riots which drove the United Nations 
briefly out of Moba in South Kivu were caused by the mere rumor 
(unfounded, as it turned out) that the United Nations was planning to 
repatriate Congolese Tutsi refugees. The fears of Congolese Tutsi that 
they could again be expropriated, expelled, or killed, as they were in 
the early 1960s, 1993, 1996, 1998, and 2004, explain why General Nkunda 
receives substantial support from his own community.
    In other words, the current crisis in eastern Congo is political 
and related fundamentally to the architecture of security forces in the 
East. It is not about an individual. The question of the citizenship 
status of Congolese Banyarwanda--both Hutu and Tutsi--caused fighting 
in the early 1960s. Fighting broke out again in the early 1990s, before 
the Rwandan genocide took place. Bukavu and Uvira in South Kivu were 
cleansed of Tutsi in 2004 after Nkunda withdrew his forces from Bukavu 
after trying to capture the city. They have not been allowed to return, 
and local leaders in the city have expressed satisfaction that it is 
finally ``clean.'' That was followed by the massacre of 150 Congolese 
Tutsi refugees at Gatumba refugee camp in Burundi by a joint force of 
FNL,\5\ Mayi-Mayi, and FDLR \6\ units, apparently with links to some 
Congolese officials. This year, the Department of State and the 
Department of Homeland Security resettled several hundred survivors of 
that massacre to the United States.
---------------------------------------------------------------------------
    \5\ The Forces Nationales de Liberation, a Burundian Hutu rebel 
movement with extremist tendencies.
    \6\ The Forces Democratiques pour la Liberation du Rwanda, an 
umbrella organization that includes the former interahamwe militias 
that carried out the genocide in Rwanda in 1994, members of the former 
Rwandan Army that helped execute the genocide as well as various 
political exiles. It has been designated a Foreign Terrorist 
Organization by the Department of State.
---------------------------------------------------------------------------
    Because Nkunda represents the rational fears of his community, 
removing him from the scene will not solve the problem, despite the 
hopes of some external observers looking at the situation for the first 
time in search of a quick fix. There are many other commanders who 
would step up to replace him if he were killed or arrested. 
Furthermore, he would quickly lose the support of his commanders, 
soldiers, and financial backers if he were to make significant 
concessions to the Congolese Government--and become politically 
irrelevant. Like virtually everyone else in Congolese political and 
military establishment, Nkunda has very serious blemishes on his record 
because the conduct of forces under his command between 2002 and today 
clearly contravened international law. But when he is singled out for 
punishment while the crimes of others have been forgiven, it reinforces 
the sense of fatalistic isolation in the Tutsi community that leads 
some of its leaders to conclude that they cannot hope for a place in 
the new democratic Congo.
                      kabila's political position
    Neither will putting pressure on President Kabila solve the 
problem. He is too weak to rein in the extremist politicians who have 
long called for Congolese Banyarwanda (both Hutu and Tutsi) to be 
expelled from the country (the first Congo war in 1996 was sparked off 
by an attempt to do so), and who raised vociferous alarm earlier this 
year when the government was negotiating with Nkunda. These hard-liners 
are urging a military solution on the President, and because his base 
of political support in Congo is so narrow (essentially Kivu, parts of 
the northeast, and his father's home base of Katanga), he cannot 
``lose'' Kivu politically and maintain a secure grip on power. Kabila 
is not the cause of the crisis, except inasmuch as his leadership has 
been feckless and lacked vision. There is no evidence that he 
personally is anti-Tutsi, though he was happy to instrumentalize anti-
Rwandan sentiment in Kivu as part of his strategy for electoral victory 
in 2006.
    Kabila's personal vulnerability on this issue is heightened by 
persistent rumors, almost certainly unfounded, that he himself had a 
Tutsi mother--an allegation deployed against him with great effect by 
his opponent Jean-Pierre Bemba in the 2006 election. Kabila's margin of 
maneuver to cut a deal with Laurent Nkunda or to empower moderate 
political forces in Kivu is thus very small.
    Ironically, it is the very democratic process of 2006 that has 
produced a political constellation that strengthened extremists in 
Kivu. This makes it extremely difficult for Kabila to act against their 
wishes. Nkunda and his supporters are aware of this, and it strengthens 
their resolve not to disarm and not to trust the government.
    For this reason, the conditions are currently not ripe for a 
negotiated political settlement to the standoff in North Kivu. The 
conditions will not be ripe until Kabila achieves a broader base of 
political support in the DRC, possibly by allying himself with 
political groups that are strong in Kasai, Bas-Congo, or Equateur. This 
will make him less dependent on the favor of the most extreme figures 
in Kivu politics, and more able to empower moderates.
    Furthermore, because MONUC has recently openly allied itself with a 
government which is itself dependent on anti-Banyarwanda extremists, 
MONUC's credibility amongst Congolese Tutsi is currently nil. This 
limits MONUC's ability to serve as an honest broker, and potentially 
exposes it to reputational risks that I will describe below.
    U.S. and MONUC policy should focus on managing the crisis to 
contain the risk of a return to war in the region until a political 
solution is achievable.
                          four risky scenarios
    A number of analysts with deep experience of the region believe 
that the North Kivu crisis does not represent a significant risk to the 
new democratic order in Congo or to the security of neighboring states. 
But there are at least four scenarios under which an attempt to resolve 
the crisis by force results in greater tragedy.
    Scenario 1: The Congolese Army attacks Nkunda's forces, with 
logistical support from MONUC, and is defeated. Nkunda's forces are 
well-trained and experienced, and above all they have a clear sense of 
purpose, because they feel they are fighting for the survival of their 
community. Kabila would be fatally weakened as a leader because of such 
a defeat, and might be forced from office. If MONUC units take 
casualties, the mission may be forced by troop-contributing countries 
to withdraw or effectively retreat into a tortoise shell for the 
remainder of its mandate. As a result, the ability of the United 
Nations to field similarly large and ambitious peacekeeping missions 
elsewhere on the continent, as they will inevitably be called upon to 
do, could be imperiled. Action of this type is being contemplated, and 
would, in my opinion, be very unwise.
    Scenario 2: Kabila gives into Nkunda's demands, dropping charges 
against him, and allowing him to integrate into the national army and 
remain in the East with his forces more or less intact. Kabila would be 
seen as weak, and would lose the support of his base. He might not be 
able to survive as leader, opening the political space to a 
destabilizing competition for political power.
    Scenario 3: Nkunda gives in to Kabila's demands, accepting 
integration into the national army for himself and his troops. He would 
probably be sidelined by his own officers and supporters before any 
such deal could be put into effect. They would keep fighting because 
they have no confidence in the willingness, much less ability, of 
Congolese security forces to protect them and their community. Nkunda's 
forces have the capacity to maintain an insurgency of some type for 
many years, and they can do so without any support from the Government 
of Rwanda. Their funds and footsoldiers are generated internally, 
within their community.
    Scenario 4: Nkunda is defeated militarily by a joint FARDC-MONUC 
operation.\7\ This is actually the most dangerous scenario. If Nkunda 
is defeated so long as the FDLR and extremist Mayi-Mayi militias are 
still a force to be reckoned with in Kivu, they will likely attack 
Banyarwanda civilians. At a minimum they will loot their property and 
attempt to expel them to Rwanda and Uganda. If they are bolder, they 
will murder many of them, as they have repeatedly done in the past. 
This scenario would also signal the reemergence of the FDLR as a 
dangerous military force on Rwanda's border.
---------------------------------------------------------------------------
    \7\ The FARDC are the Forces Armees de la Republique Democratique 
du Congo, i.e., the Congolese Army.
---------------------------------------------------------------------------
    The ENOUGH Project and other observers have already documented 
cases of known FDLR units cooperating with Congolese Army units in 
recent months. Rwanda could be forced to act under this scenario, even 
though its own national priorities dictate that it remain out of 
involvement in the Congo. Furthermore, the reputational damage to the 
United Nations (whose reputation in Congo has already been severely 
dented by sex scandals and illegal gold trading) would be significant 
if a military victory they helped bring about resulted in the ethnic 
cleansing of an entire community. In this connection, it is important 
to recall that the FDLR has been designated a Foreign Terrorist Group 
by the Department of State, and was responsible for the targeted murder 
of Americans in Bwindi National Park in Uganda in 1998. They must not 
be treated as if they are just any other party to the conflict.
    A caveat that applies to all scenarios involving military action: 
They will all dramatically increase the already unfathomable levels of 
sexual violence against women in Kivu. The FARDC are one of the leading 
perpetrators of such violence, and any help from MONUC that enables the 
FARDC to operate more freely throughout the countryside before the 
units are disciplined and under firm supervision could be considered 
complicity, since a rise in sexual violence would be a predictable 
consequence. Support from MONUC that inadvertently allows the Mayi-Mayi 
and FDLR militias, the chief perpetrators of the rapes, more freedom to 
roam would be equally devastating.
                     the role of the united states
    The Great Lakes region is an area where U.S. engagement has made an 
appreciable difference since the late 1990s. The real credit for the 
positive changes is due to the actors themselves, but the U.S. has 
often stepped in at crucial moments to make it possible for adversaries 
to discuss their differences and find pathways to resolution. This was 
the case during the period of tensions between Rwanda and Uganda in 
1999-2000, during the negotiations that led to the peace agreements for 
Congo and Burundi, and it is the case now with the innovative (and 
mostly unheralded) Tripartite Plus mechanism. This mechanism creates a 
venue for military and security officials from Congo, Rwanda, Burundi, 
and Uganda to meet regularly and work out the differences in a 
structured manner. It is cost-effective, produces results, and is a 
form of U.S. engagement that is welcomed by the regional governments, 
because it allows them to maintain control of the agenda.
    This is also the place to salute the small cohort of professionals 
in the U.S. Government who know this region very well and have grappled 
with its complexities for many years. With limited resources and 
infrequent attention from senior policymakers, they have done 
remarkable work in helping to consolidate peace and security in the 
region, and in helping policymakers make sense of a complex and 
mysterious region about which it is very difficult to obtain reliable 
information.
    A more substantial U.S. engagement would most profitably focus on 
security-
sector reform (as a major component of a strategy to reduce sexual 
violence), regional economic integration, and continuing to facilitate 
high-level contacts between the countries of the region. It would also 
commit to supporting MONUC for several years to come.
    In summary, the Great Lakes region stands at its most auspicious 
moment in a generation, despite outward appearances of crisis. 
Nevertheless, the remaining obstacles to peace and security in the 
region are real, and, if mismanaged, could have catastrophic 
consequences.
    The United States has a key role to play by maintaining its 
bilateral engagement while ensuring adequate funding for MONUC even as 
it makes sure that MONUC applies its mandate in the most even-handed 
manner possible, by being more aggressive with all illegal armed groups 
in the country, to include the FDLR, the Mayi-Mayi, the LRA, as well as 
Nkunda's forces. The fact that Congo now has a democratically elected 
government does not require the international community to acquiesce in 
(and pay for) policy choices which will predictably result in political 
disaster and violations of human rights law.
    Every effort must be made to discourage the Congolese Government 
from pursuing a military solution to the problem of the dissident 
officers in North Kivu. Both defeat and victory would be fraught with 
danger, as I indicated above. The human consequences, though impossible 
to predict, could, based on the recent experiences of the region, dwarf 
that of any other current crisis on the continent.
    A pragmatic U.S. and international policy recognizes that North 
Kivu is a problem to be managed for some time to come by promoting 
concrete, intermediate confidence-building measures and using its 
diplomatic and military leverage to deter a return to all-out war.

    Senator Feingold. Thank you very much.
    I certainly acknowledge the situations that have improved 
over the last 15 years, and I certainly think you were accurate 
in your general description of what has happened in the DRC. 
But I just want it very clear on the record, the elections in 
the DRC were surprisingly good and credible compared, for 
example, to what happened in Nigeria. On the other hand, what's 
happening in eastern Congo is not simply a situation where 
there's sort of a huge humanitarian crisis and sort of a mopup 
of remaining military problems. The situation is militarily 
very complex, involving so many international players that the 
humanitarian situation, as you just suggested, cannot be 
seriously addressed unless those pieces are very aggressively 
addressed.
    It is just so important that people get the right 
impression about what's happening here. It's good news, but 
there's also very bad news, and it's not something that's 
almost taken care of, by any means. And I think that that's 
something I want everyone following this to realize about this 
crisis in the eastern Congo.
    Ms. Smith, despite last year's historic election in the 
DRC, my recent visit highlighted how fragile the domestic 
political situation remains. Within the government, a lack of 
capacity, political will, and democratic experience have 
hobbled forward movement, with almost no progress on key 
political issues such as decentralization, resource management, 
and military reform. Meanwhile, the local population is 
increasingly disenchanted with President Kabila's government, 
since, for the most part they've seen little change in their 
daily lives.
    What do you think the United States and other donors should 
prioritize in our diplomacy and assistance to help ensure that 
the Congolese Government follows through on critical policy 
initiatives and that the Congolese people see evidence of a 
``democracy dividend''?
    Ms. Smith. This is a really key question, I think, we've 
seen around the world that--where democracy doesn't deliver. We 
see setbacks. And I think that would be a real mistake in 
Congo, given, as you pointed out, that the elections were far 
better than any of us had anticipated.
    I think there are a couple of things that--I'm pleased that 
my colleague also mentioned the work of former Congressman 
Howard Wolpe, who is doing this work all over the region, at 
this point, in Burundi and also in the Congo. And he's just 
started the project in the Congo. And what's interesting there 
is that it attacks, head on, this problem in the Congo of 
``winner takes all.'' That's been the political culture for 
decades. And so, essentially what they do is get everybody in 
the same room and train them in, how do you make joint 
decisions about resource allocation, so it's not a discussion 
of which political entity gets how much of the pie, but how do 
they collectively make decisions, based on the national economy 
and before a national citizenry. That's a--the kind of 
initiative that will take time to bear fruit, but, I think, is 
an absolutely critical instrument of our success. It's being 
funded by USAID, but I would certainly expand that funding.
    Second, I would urge that we concentrate the investment of 
our aid dollars so that we can help, to the greatest extent 
possible, see real returns, probably, most appropriately, in 
agriculture, so that people can see tangible gains, either in 
agriculture or education. We're spread out, as we are in every 
country around the world. We do a little bit of everything. I'd 
narrow those resources to a couple of key priorities so that 
the government doesn't face the problem that President Obasanjo 
did in Nigeria, right when he came into power, which was trying 
to do everything, and being a mile wide and an inch deep, and 
have nothing substantive to deliver a couple of years into the 
game. So, I'd concentrate, and I'd invest much more in our 
friend Howard.
    Senator Feingold. Well, first, let me acknowledge 
Congressman Wolpe's tremendous leadership in this area. I 
learned from him a great deal in my extensive trip to Africa in 
1999, and he really has been an incredibly well-informed and 
able person in this area.
    I'm also so pleased that Senator Nelson has joined us, and, 
when I finish my round, I'll turn to him for a round of 
questions.
    Ms. Smith, one of the root causes of the current conflict 
in DRC was the historical exploitation and neglect of Congo's 
eastern provinces. Even today, as the World Bank and bilateral 
donors invest in energy and AIDS-related projects just across 
the border in Rwanda, almost no national or international 
resources are being directed toward the Kivus. I believe that 
there will never be sustainable peace in the region as long as 
these states--which make up an area the size of Rwanda itself--
continue to be disregarded by the Congolese Government and the 
international donor community.
    What do you see as the best way to increase the energy, 
health care, and other essential resources available to 
Congolese in the East?
    Ms. Smith. One of the things, Senator, I'd take a serious 
look at doing is seeing how we, working with the international 
financial institutions, the U.N., NGOs, and others, can put 
together a regional economic agenda that focuses on a couple of 
things. One is cross-border trade, and the second is petty 
trade within and between communities. I honestly believe--and I 
think the other panelists have alluded to this--that unless 
people have tangible assets that they want to protect, it's 
very easy to fall into war, and there's less resistance, as, I 
think, we've seen throughout. So, I think that would be one 
thing.
    The second would be to do some joint regional programming. 
Even though the regional war has ended, I would not suggest, at 
this point, that there are warm, fuzzy relations between and 
among all the governments in that region. There is still a lot 
of skepticism. So, to the extent that we can, for example, in a 
field like energy--they all need affordable sources of energy 
that are not based on fossil fuels, because they can't afford 
it. Look at a regional energy facility that brings all of them 
into the same mix. Again, I think regional is absolutely 
critical.
    Senator Feingold. Thank you.
    Mr. Fitzcharles, what kind of programs exist to deal with 
these problems of sexual and gender violence--both in the 
immediate aftermath of a traumatic experience like that, but 
also in terms of negating any social acceptance of such acts? 
From your on-the-ground perspective, what is missing from these 
programs in terms of resource and support that could make them 
more effective?
    Mr. Fitzcharles. Thank you.
    Types of programs for SGBV generally focus on the three 
areas of prevention, which deal with community awareness of 
SGBV: Women's rights, decisionmaking in the household, how 
husbands and wives--or even not husbands and wives, but living 
together--make decisions. Then, second, what happens when SGBV 
occurs? What happens to the survivor? Where can she go?--
normally ``she,'' sometimes ``he''--go? What kind of assistance 
can they get under the law? And what kind of health assistance 
can they get? So, those are, basically, the three areas that 
most programs on SGBV are funded--are predicated.
    I think you then asked the question: What can be done to 
increase that? Currently, there's very little funding 
specifically for SGBV. We've had a very difficult time. We have 
funding from UNFPA at the moment. It's only 6-month funding, 
which, I'm sure you'll agree, is quite absurd to try to do much 
about sexual/gender-based violence with a 6-month window. 
Unfortunately, we--the way we program--``we,'' the development 
community, is very sectoral, as I think you know, as well, so 
we'll have an SGBV component under that--under a health 
program, or we'll have an SGBV component under a women's rights 
program. But it's rare--quite rare to find a stand-alone SGBV-
integrated program.
    Senator Feingold. Of its own, yes.
    Mr. Fitzcharles. And that's a shame, I think. I'm quite 
certain the U.S. Government is not funding any in----
    Senator Feingold. All right.
    Mr. Fitzcharles [continuing]. In northern Uganda, at least, 
and, I don't think, in Congo, as well.
    Senator Feingold. Well, that's a useful comment.
    Let me turn to Mr. De Lorenzo. Rwandan President Paul 
Kagame has publicly stated that General Nkunda has legitimate 
political grievances against the Congolese Government, and 
there is a widespread perception that Rwanda is providing 
support to Nkunda's forces. How would you characterize Rwanda's 
overriding interest in this conflict in the region and what 
impact--positive or negative--do you think it is having on 
stability in the Great Lakes region?
    Mr. De Lorenzo. At the moment, I believe their role is 
essentially positive and fundamentally different from the way 
they dealt with these issues in the late 1990s and throughout 
the period of the RCD rebellion. The two Presidents meet often 
and talk often. They met most recently at the U.N. General 
Assembly in New York. President Kabila himself didn't raise the 
issue of any Rwandan support to the FDLR. The Congolese 
Government asked the Rwandan Government--the Rwandan Army--to 
help mediate between the Congolese chief of staff and General 
Nkunda, which they did.
    Rwanda decided, in 2004, to have a go and to try and see if 
they could work with Kabila. Rwanda's priorities are very 
different now than they were in the last 1990s, and the main 
reason is that Rwanda has a lot more to lose, economically and 
in terms of the goodwill it's built up around the world with 
people like former President Clinton, who's very active in 
Rwanda, with Bill Gates, with a number of other American 
business leaders whose involvement in Rwanda depends on it not 
sullying their own reputations. And President Kagame is very 
aware of that. And the chief economic constraint faced by 
Rwanda is the price of energy and its own energy security, and 
solving that problem depends upon cooperation with the 
Congolese Government, because the only viable source of energy 
for the short term is methane gas extraction from Lake Kivu, 
which is shared between the two countries.
    So, that's why you find, at the Presidential level, but 
also at the ministerial level, back-and-forth exchanges, even 
as this crisis has unfolded. For that reason, I think it's 
unlikely that we'll see any direct support by Rwanda. To 
Nkunda, they're, in fact, kind of, annoyed with him and find 
him difficult to deal with. And, in fact, Nkunda is independent 
of them, because he has his own sources of funding and his own 
sources of troops from his own community.
    Senator Feingold. Well, I think the more Rwanda can assure 
us that they're not giving this kind of help--and prove that 
they're not giving this kind of help--to General Nkunda, the 
more likely I and others are ready to believe that their 
overall influence is positive. And I of course, I want to think 
that, but I got a strong feeling when I was in eastern Congo 
that that may not be the case, but I am open to information and 
persuasion.
    Senator Nelson.
    Senator Bill Nelson. The United States is setting up a new 
military command, the Africa Command. Unlike its typical 
military commands, this is one that is going to try to 
integrate all the agencies of the Federal Government working 
together cooperatively. I'd like to know what you think about 
this, and what kind of advice would you have for the U.S. 
Department of Defense as this command is set up.
    Ms. Smith. Senator, thank you for asking that question. I 
think this is a huge development, and it's one where I find 
myself able to support the analysis that underpins it, but not 
the actual decision to move forward.
    I think the notion of forward deploying a command in 
Africa--while a unified African Command may be a good idea, and 
an idea that's time has come, I think forward deployment is 
something I would look at very seriously, for a couple of 
reasons. If we're forward deployed, and Darfur happens, the 
eastern Kivus blow up, Zimbabwe goes into a greater crisis than 
it is already in, I think there are going to be questions about 
what we're going to do, and I think we would have to have that 
sorted out.
    There are questions about the African Union and its plans 
and roles on the continent. I think that AFRICOM would need to 
be lashed up with those, and I think the response from a lot of 
African chiefs of staff, thus far, is that they've got more 
questions than answers.
    The other thing is this notion of coordinating all U.S. 
Government agencies within and behind AFRICOM. I think their 
analysis of the development imperatives as tied to security in 
Africa are spot-on. I'm not persuaded that the frontal face of 
the U.S. engagement in development in Africa should be the 
Department of Defense. I personally would rather see a 
development agency out there in front on that. The coordination 
is critical, but I'm of the view we need to start doing that 
back here, across the whole of government first before 
experimenting it--with a forward command on the African 
Continent.
    So, I think there are more questions to be answered before 
this should be launched.
    Mr. Fitzcharles. Yes, thank you. From the Uganda 
perspective, I've met the--some of the AFRICOM people, and the 
Embassy there has done a good job in introducing AFRICOM to 
civil society. They're working mostly in bridges, road 
reconstruction, et cetera. There's actually a civil-military 
team in northern Uganda, where, I believe, maybe, Senator 
Feingold may have met when he was there. They seem to be doing 
good work. They're--the underlying reason given for their 
presence is--which is very visible, of course, in northern 
Uganda, when you have a bunch of Army engineers and marines 
running around--the reason given is that they're training UPDF 
troops in human rights and civil-military relations.
    I think they probably are trying to do that. I think there 
are only about 12--12 to 15 on the ground at the moment. It's a 
big job. We applaud their engineering work. There is some 
concern in Uganda, particularly among civil society, about the 
role--the military taking a leading role in humanitarian 
assistance, doing things like building bridges, and 
particularly in civilian clothes, which sometimes mixes, as 
we've seen in Afghanistan and other places--blurs the line 
between humanitarian actors and military humanitarian actions. 
So, there is that concern.
    But, otherwise, we have an open mind about the question. 
And I know AFRICOM has been a political issue--South Africa and 
other countries.
    So, I think that's all I'd comment on that. Thank you.
    Mr. De Lorenzo. I would just say that AFRICOM is going to 
do pretty much very similar things as the previous structures 
did--EUCOM, PACOM, CENTCOM--but, because it was announced sort 
of brusquely, and because it was called Africa Command, as if 
you're commanding Africa, it raised a lot of concerns and 
doubts in Africa. And the Defense Department responded to that 
by emphasizing AFRICOM's possibilities to contribute to 
development, that there would be State Department involved, 
that there would be USAID involved. And what that did, 
paradoxically, is make people confused and think that the 
Defense Department is now going to be running U.S. foreign 
policy in Africa and U.S. development policy, even though, as I 
understand it, the Defense Department has no interest in doing 
any of those things, and now realizes that it's made an error 
in strategic communications and is trying to backpedal and find 
a way to recalibrate the message and let's say, ``Look, we're 
going to focus on security.''
    I think there are two outstanding issues which they need to 
address. One, we need to come to some kind of definitive 
statement on the presence and basing question. That's still up 
in the air, even though the command is now operational since 
October 1. Is there going to be a headquarters? Where is it 
going to be? A lot of people are asking that question.
    And, finally, there's a perception in Africa, because of 
timing, that AFRICOM is a reaction to the China-Africa issue, 
which I believe actually was not part of the Defense 
Department's calculations when they were making this decision. 
Nevertheless, Africans believe it. And one thing they're 
worried about is that they have memories of the cold war, and 
they don't want to be in between or underneath two giants. And 
so, I think that's something we have to address head on when 
we're explaining the purpose of this command and why it's 
there.
    Senator Bill Nelson. I want to ask you about the child 
soldiers in northern Uganda. How have our U.S.-funded programs 
addressed this problem?
    Mr. Fitzcharles. Thank you.
    The problem of child soldiers, which you--I'm sure you 
know, there are estimates of 25 to 30,000 who have been 
abducted, and many of them have not returned, of course. I 
think the numbers of returnees are probably between the 5 and 
10,000 range.
    There are a number of programs, many run by faith-based 
organizations, that collect children, working closely with 
UNICEF, register them, put them through courses of psychosocial 
counseling, often find their families again, reunite them with 
families. If they can't find their families, they find uncles 
or aunts or grandparents. And I think they do a good job in the 
initial reception, training, and then reintegration.
    The big problem lies in any followup, particularly for the 
girls. There are no markets, there are no jobs, there's 
nothing--you can train a returnee until the cows come home, 
but, if there's no job and no markets, it's impossible for that 
person to make a living.
    What happens often is, they return to the streets. There's 
a growing number of street children in all the cities in the 
North. Many of them are returnees. Some of them are then 
initially accepted by the communities, and then some of them 
are rejected after that, by the same communities, when life 
becomes difficult for them or when they're not contributing 
something.
    So, definitely longer term programs, psychosocial, and 
reintegration programs are lacking, and that's a real need, I 
think.
    Senator Feingold. Thank you, both panels, and, of course, 
Senator Nelson, for his strong involvement on the subcommittee. 
I'm determined to keep the focus on this Great Lakes region, 
and I believe this hearing today has really helped us keep some 
momentum going on this, so I thank you very much.
    And that concludes the hearing.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


ENOUGH Project Report--Strategy Paper No. 7, September 2007, Submitted 
                         by Katherine Almquist

            averting the nightmare scenario in eastern congo
By John Prendergast and Colin Thomas-Jensen

    Between 1996 and 2002, the two massive wars fought in the 
Democratic Republic of the Congo were arguably the world's deadliest 
since World War II. With almost no international fanfare, Congo is on 
the brink of its third major war in the last decade, and almost nothing 
is being done to stop it.
    A dissident Congolese Tutsi General named Laurent Nkunda and at 
least 3,000 loyal forces have carved out control of parts of North Kivu 
Province. The Congolese government has responded by realigning itself 
with the FDLR--a militia composed of more than 6,000 Rwandan Hutu 
rebels, many with links to the 1994 genocide in their home country--to 
fight Nkunda's more effective force.
    Fighting between the two sides has intensified in recent weeks. 
Troops are being deployed to the front line and more are being forcibly 
recruited, and the potential for Rwanda to be drawn back into Congo--as 
it was in the two previous wars--increases with each day the 
international community drags its feet.
    War in the Great Lakes region has been in a state of suspension 
over the last few years, despite the Congolese peace deal, and it 
ominously appears that the conflict has not yet reached its conclusion. 
Despite a complex peace deal and successful Congolese elections in late 
2006, Congo will head down the road to a third cataclysm if the 
international community does not take much more robust action.
    Incredibly, the world's largest peacekeeping mission, the United 
Nations Mission in the Congo, or MONUC, is not engaging in any official 
dialogue with Nkunda, and there is no comprehensive diplomatic effort 
to head off what could return eastern Congo to the status it has held 
for much of the past decade as the world's deadliest war zone. And 
while the U.N. Security Council President issued a statement in July 
urging all actors in the conflict to use diplomatic and political means 
to resolve the crisis, no one has stepped up to make that happen. The 
international community is not bringing strong pressure to bear on the 
Congolese government or Nkunda and his backers to negotiate. To arrest 
a bloody slide toward a catastrophic regional war, the international 
community must act quickly to implement a comprehensive political, 
economic, and military strategy, which involves launching negotiations 
between the Congolese government and Nkunda and dealing concurrently 
with the pretext for his rebellion--the FDLR.
    Nkunda and the FDLR are inexorably entwined. The continued presence 
of the FDLR, the danger they pose to civilians, and the failure of the 
Congolese army to protect its citizens enables Nkunda to portray 
himself as a protector of his Tutsi community. At the same time, human 
rights abuses by Nkunda's forces reinforce anti-Tutsi and anti-Rwandan 
sentiment in the region, and bolster calls for a decisive military 
solution to his rebellion. ``Nkunda is a pyromaniac masquerading as a 
firefighter,'' says Congo expert Jason Stearns. ``The abuses committed 
by forces under his control fuel pervasive anti-Tutsi sentiment in the 
Kivus, yet he claims to be the only person who can protect his 
people.''
    Recent attempts by Kabila's government to co-opt Nkunda and his 
forces have backfired, strengthening Nkunda's hand and emboldening 
hardliners in the Presidential circle who prefer a military solution. 
Given the systemic weaknesses of the Congolese army, the Congolese 
government has allied itself with the FDLR for military operations 
against Nkunda.
    In a true nightmare scenario, the Congolese alliance with the FDLR 
could draw Rwanda back into eastern Congo, and full-scale war could 
again engulf the Great Lakes. Rwandan President Paul Kagame recently 
told ENOUGH, ``The FDLR is not a strategic threat as long as there is 
no one behind them, supporting them. They become a strategic threat 
only if someone uses them.''
    Inevitably, civilians are caught in the crossfire of military 
operations, and the prevailing climate of impunity allows all sides--
Nkunda, the FDLR, the Congolese army, and local militias--to exploit 
the local population without fear of consequences.
    Within the context of the ENOUGH Project's 3P's of crisis response 
(Peacemaking, Protection, and Punishment), the international community 
must immediately develop a ``carrots and sticks'' approach to avoid the 
resumption of full-scale war and deal with the intertwined challenges 
of Nkunda and the FDLR.
    Peacemaking: MONUC must enlist strong support from the United 
States, EU, and key African states such as Rwanda and South Africa for 
a diplomatic initiative that focuses on the carrots: Political 
negotiations to integrate Nkunda's forces into the Congolese army and a 
redoubled effort to demobilize willing FDLR forces.\1\
---------------------------------------------------------------------------
    \1\ The U.S. is well positioned to support regional diplomacy 
through the ``Tripartite Plus'' mechanism, a U.S.-backed forum for the 
governments of Congo, Rwanda, Uganda, and Burundi to discuss common 
security concerns.
---------------------------------------------------------------------------
    Protection: While maintaining its focus on protecting civilians and 
humanitarian operations, MONUC must assume the lead in developing the 
military sticks necessary to concentrate minds on finding non-violent 
solutions to the crisis. These sticks include credible military threats 
both to deal with Nkunda if political talks fail and to go after FDLR 
units that refuse to demobilize.
    Punishment: Non-military sticks are also needed. The international 
community must move aggressively on three fronts: Cutting off supply 
lines to belligerent parties in eastern Congo; collecting data on new 
crimes against humanity to support future prosecution by the 
International Criminal Court; and increasing support for military 
justice reform and capacity building to effectively punish crimes 
committed by the Congolese military and ensure that a responsible, 
professional, and capable military force emerges over time.
                  a cycle atrocities in eastern congo
    The vast majority of eastern Congolese are ensnared in the criminal 
livelihoods of numerous predatory armed groups. They are suppliers of 
``wives'' for the army and militia, labor for the landowners, and food 
producers for the combatants who loot their harvests. Because of the 
persistent violence and displacement caused by these armed groups, one 
of the highest excess death rates in the world--1,200 people per day by 
the last comprehensive mortality study--stubbornly persists.\2\ Newly 
elected Congolese President Joseph Kabila's government faces an uphill 
battle to establish security in the eastern Congolese regions of North 
Kivu, South Kivu, Katanga, Maniema, and Ituri.\3\
---------------------------------------------------------------------------
    \2\ Learn more about death rates in the Congo from the 
International Rescue Committee (www.theirc.org).
    \3\ The root causes of crimes against humanity in eastern Congo are 
as complex as its land is vast. ENOUGH will release a series of papers 
and briefings to build understanding and awareness among policymakers 
and activists. This strategy paper provides analysis and policy 
recommendations for how to thwart the growing threat of a devastating 
new regional conflict.
---------------------------------------------------------------------------
    The Congolese army is the most guilty of human rights violations, 
but it is joined by roughly 8,000 to 9,000 Rwandan and Ugandan rebels 
(including the Lord's Resistance Army) and 5,000 to 8,000 local 
militiamen that operate in the East.\4\ These armed groups clash with 
each other and with the Congolese army, and they target local villagers 
in a continuous cocktail of below-the-radar violence.
---------------------------------------------------------------------------
    \4\ To learn more about Uganda Lord's Resistance Army rebels and 
how to achieve peace in northern Uganda, read ENOUGH's most recent 
northern Uganda Strategy Paper at www.enoughproject.com.
---------------------------------------------------------------------------
    Heavier bouts of fighting occasionally burst onto the international 
radar screen. In November 2006, for example, fighting in North Kivu--
between government army forces and FDLR militia on the one hand and 
Nkunda's forces on the other--displaced 120,000 civilians overnight. 
This recurring displacement experienced by civilian populations has 
left most communities on the knife-edge of survival.
    Continued atrocities in the East have two underlying causes:

          1. The long-standing structural weaknesses of the Congolese 
        state, in particular the predatory nature of its armed forces 
        and the general state of impunity and lawlessness across the 
        country; and
          2. The rise of parasitic armed groups--driven by competition 
        for vast natural resources, struggle for political power, 
        communal tensions, and legitimate security concerns--which fill 
        the vacuum of the state and feed off its people.

    Unsurprisingly, there is a very tight correlation between continued 
conflict and high death rates. According to the U.N., at least 1.2 
million people are displaced inside Congo, most of them in the East. In 
the western part of Congo, death rates are similar to those in other 
parts of sub-Saharan Africa. In the East, the rates are double. People 
die in eastern Congo in huge numbers, indirectly due to the ripple 
effects of violence: Continuing attacks, ongoing rapes, and routine 
looting and forced labor all lead to waves of displacement, frequent 
epidemics, limited access to basic health services, persistent hunger 
and malnutrition, and spiraling impoverishment.\5\
---------------------------------------------------------------------------
    \5\ The pervasiveness of sexual violence in eastern Congo is one of 
the most destructive legacies of the war. Kidnappings and sexual 
slavery are common, as armed groups continue to ravage communities 
already ripped apart by years of atrocities. Prof. Yakin Erturk, 
Special Rapporteur of the U.N. Human Rights Council on violence against 
women, who visited Congo in July 2007, stated: ``From the perspective 
of my mandate, which focuses on violence against women, the situation 
in the Kivus is the worst crisis I have encountered so far.''
---------------------------------------------------------------------------
    A non-functioning state means that there is no recourse but to the 
slivers of international assistance that trickle in via heroic aid 
agency efforts, but the scale of the problems in the Congo dwarfs the 
response of donor governments. Moreover, humanitarian access to these 
vulnerable populations is under constant stress, and U.N. agencies and 
nongovernmental organizations, or NGOs, are fighting an uphill battle 
to save lives. Where aid agencies do get involved, death rates go down. 
However, the humanitarian aid trickling through is a small drop in an 
ocean of need, and U.N. officials report they have less access now in 
parts of North Kivu than they did in the fall of 2006.
    One of the most important regional developments of the last year 
was a thawing in relations between the Congolese and Rwandan 
governments, and the Ugandan and Rwandan governments. This helped the 
Congolese elections to occur without major incident and also de-
escalated the regional confrontation between Rwanda and Uganda, which 
often played itself out on Congolese soil. This strategic decision by 
Rwanda to focus on becoming the ``Singapore of Africa'' and improving 
regional relations was perhaps the most important element in reducing 
large-scale conflict in Congo. All this is now put at risk because of 
the recent escalation between Nkunda and Kinshasa, particularly in 
light of the latter's realignment with the FDLR.
    Multiple motives are at play in Kinshasa and Kigali, some of which 
tend to reinforce some level of instability on the Congolese side of 
the border. Disturbingly, Nkunda has recruited from within Rwandan 
borders and, according to the more than 100 Rwandans who have deserted 
from Nkunda, Rwandan officials appear to have been complicit in this 
recruitment. Their motives include protection of the Tutsi community, 
dealing with FDLR, but also possibly protecting remaining financial and 
resource extraction networks in North Kivu.
           how should we respond to such a complex emergency?
    What, then, is the required response to the potential for the 
resumption of full scale war overlaying the chronic low-grade violence 
in eastern Congo that leads to continued displacement and death?
    The focus must be first on the proximate causes of the violence: 
The military elements--foreign and Congolese, state and nonstate--that 
continue to prey upon the population of the East. The overarching 
objective must be to reduce the core level of violence through eroding 
the numbers of rogue armed elements and affecting the incentive 
structure of those that loot and kill with impunity. A successful 
strategy must balance a combination of diplomacy, disarmament, and 
reintegration of excombatants, military reform, international and 
domestic legal prosecution, and, as a last resort, military action.
     carrots and sticks to avert full-scale war--enough's proposals
    Security in eastern Congo is the responsibility of the government, 
but there is no locus of responsibility for mediation. The government 
wants to make bilateral deals with various militia groups and keep 
outside entities like MONUC away during the critical follow-up period. 
Too often, these deals have merely sanctioned impunity and caused other 
militia to break off. The atrocities continue.
    Negotiation can work in Congo, but only if the U.N. and key states, 
including the United States, commit themselves to an initiative with 
tangible carrots and sticks to deal concurrently with Nkunda and the 
FDLR.
1. Laurent Nkunda
    Nkunda is a Congolese from the ethnic Tutsi community who, off and 
on, has been fighting against the national army for three years and 
leads a rebel operation in North Kivu. He emerged to protect the Tutsi 
community and its interests in the East when Rwandan-backed political 
structures in the Kivus collapsed. Nkunda is also driven by self-
preservation. His forces have been responsible for grave human rights 
violations in the context of military engagements, such as the forced 
displacement of civilians, rape, looting, and extrajudicial killings 
(including the massacre of civilians in Kisangani in 2002). The 
Congolese government issued an international arrest warrant for him in 
September 2005.
    In January 2007, Nkunda and the Congolese government reached a 
tenuous agreement to ``mix'' their troops. According to the regional 
army commander, ``This `mixage' process was supposed to dilute Nkunda's 
control by breaking down his command structure.'' He went on to explain 
that ``every Nkunda commander would have one of my men as his deputy, 
and vice versa.'' Unfortunately, by March 2007, these efforts had 
produced the opposite effect. Instead of diluting Nkunda's power and 
reining in his abuses, they reinforced his strength. His soldiers were 
all given new uniforms and received salaries, but they remained largely 
independent of the government army.
    In April, with command over his forces more or less intact and with 
newly increased military capacity, Nkunda launched an offensive against 
the FDLR. Because the FDLR cohabitates with civilians in villages, 
Nkunda's brutal counterinsurgency tactics displaced more than 200,000 
people, the largest new displacement of Congolese since 2003. The 
``mixage'' experiment collapsed, and the Congolese government has begun 
deploying two additional brigades to North Kivu in preparation for an 
attack on Nkunda while also using ethnic divide-and-conquer tactics to 
break down his forces from within.
    We propose the following carrots and sticks strategy:
            (a) The Carrots
    Carrot: MONUC, supported by partners in the donor community and key 
African states, should mediate a two-track political process.

  <bullet> The first track should be political negotiations between the 
        Congolese government and Nkunda aimed at the full integration 
        of Nkunda and his forces into the Congolese army.
  <bullet> The second track should be discussions between the Congolese 
        government, the Rwandan government, MONUC, and donors on how to 
        jointly address the root causes of violence in the Kivus.

    The Congolese government sees Nkunda's rebellion as a military 
problem that demands a military solution. Rwanda supports Nkunda's 
political demands and evidence suggests that some Rwandan officials 
turn a blind eye to his recruitment of refugees, including children, 
inside Rwanda. Rwanda could easily be pulled into the conflict as 
evidence mounts of Congolese government support for the FDLR.
    Unfortunately, MONUC has no official dialogue with Nkunda, and 
there is no formal mediation process focused on a solution. The 
Security Council must press MONUC to take a lead role in political 
talks, and member states must exert their leverage and press the 
Congolese government to back away from a military solution to Nkunda's 
rebellion. Member states must also press for dialogue and with the 
Rwandan government to end its support for Nkunda and encourage him to 
engage in talks with Kinshasa.
    Nkunda's core political demands are the dismantling of the FDLR and 
the return of Congolese refugees in Rwanda back to Congo,\6\ and he 
hopes to link negotiations on military integration to these issues, and 
his own security, to larger reconciliation efforts with the Congolese 
Tutsi community. However, like the LRA in northern Uganda, because of 
the horrific human rights abuses for which he is responsible, Nkunda 
cannot be viewed as the sole representative to negotiate on behalf the 
community he claims to protect. The Congolese government must work with 
MONUC to establish a parallel process to deal with root causes such as 
the one we propose above.
---------------------------------------------------------------------------
    \6\ The issues are closely linked. There are 45,000 Congolese Tutsi 
refugees still in Rwanda who cannot return home partly because the FDLR 
has occupied their lands.
---------------------------------------------------------------------------
            (b) The Sticks
    The international community must demonstrate that there will be 
clear consequences for Nkunda--or the government--if a political 
settlement cannot be achieved, both as leverage to push Nkunda to the 
negotiating table and as an assurance to pull the Congolese government 
back from the brink of renewed war.
    Military Stick: MONUC should work with the Congolese army to 
develop a joint contingency military strategy to deal with Nkunda if 
political negotiations fail. This would require additional special 
forces units from MONUC to conduct offensive operations with the 
Congolese army as well as for an increased emphasis on protecting 
civilians from the fallout.
    Economic Stick: The U.N. Security Council should authorize a panel 
of experts to investigate lines of support for Nkunda and recommend 
targeted sanctions.
    Legal Stick: Donors should provide increased support through MONUC 
for military justice reform to effectively punish crimes committed by 
Congolese security forces, including those loyal to Nkunda.
2. The FDLR
    The FDLR are Hutu rebels with links to the 1994 genocide in Rwanda. 
Their continued presence in the Kivus, which border Rwanda, undermines 
stability in the East and strains Rwandan relations with Joseph 
Kabila's government in Kinshasa. As one senior Rwandan official told 
ENOUGH, ``A 6,000 to 7,000 force is always a threat. They have the 
numbers, sophistication, ideology and training, and can be a highly 
disruptive force when they target key infrastructure.''
    Many FDLR units are self-financing. The militia has contol over 
mines in some areas, and local taxation of commencial routes in others. 
They are difficult to confront militarily because they do not stand and 
fight, but rather they retreat into the jungle and attack civilian 
populations. When they are attacked by MONUC, Nkunda's forces, or 
others, there are usually large numbers of revenge killings of 
civilians in the area, often forcing ever more people to flee their 
homes.
            (a) The Carrots
    Carrot: The Rwandan government should publish a list of FDLR 
members suspected of involvement in the genocide who are most wanted 
and clearly state that others will not be prosecuted.
    Carrot: The Rwandan government should offer positions in the 
Rwandan army to senior FDLR commanders not on the list.
    Carrot: MONUC should step up information campaigns and 
sensitization initiatives that use demobilized FDLR to explain what 
happens to ex-combatants who return to Rwanda.
    Carrot: Working through the United Nations, donors should 
significantly increase the reintegration packages offered to moderate 
FDLR as part of the DDR strategy.
    Stated broadly, the carrot is an internationally backed, multi-
faceted, incentive-laden DDR program to co-opt the moderate FDLR 
leadership, isolate the genocidaires, and induce the rank-and-file to 
leave the FDLR and either return to Rwanda or demobilize and resettle 
inside Congo, farther away from the Rwandan border.
    ENOUGH spent considerable time interviewing former FDLR fighters 
who had returned to Rwanda. Many had experienced interference by the 
Congolese army when trying to escape.\7\ Some had friends who had tried 
to escape but were killed by the FDLR, All of them felt Radio Rwanda 
and Radio Okapi \8\ were important factors in giving them the 
confidence to escape. Through the broadcasts, they all knew that they 
would not be arrested by the Rwandan government if they were younger 
than 27 years old (and therefore minors during the genocide). Hearing 
people they knew on the radio who had already gone home was key in 
influencing their calculation to run away.
---------------------------------------------------------------------------
    \7\ Some described being turned away by Congolese army units when 
they tried to turn themselves in. Others felt collaboration between 
Congolese army and FDLR soldiers at the local level jeopardized program 
security.
    \8\ Radio Okapi is a joint project of MONUC and the Hirondelle 
Foundation.
---------------------------------------------------------------------------
    All ex-fighters felt that more people who had escaped should be 
sent back to eastern Congo with MONUC protection to demonstrate to 
those FDLR still in the bush who were not part of the genocide that it 
is safe to go home. Some of those we spoke to were willing to go back 
themselves and hand out photographs and letters to demonstrate that it 
is indeed safe to return to Rwanda, Not a single ex-combatant we 
interviewed had any regrets about escaping.
    In the absence of any real economic opportunities, however, DDR is 
often a revolving door. FDLR who are demobilized will likely go right 
back to their previous militia employers. At present, a combatant who 
makes the decision to return to Rwanda will receive only $300 with 
which to begin a new life. As one diplomat close to the process told 
ENOUGH, ``A large percentage of FDLR militia would like to get out. 
They need to be given incentives and opportunities.''
            (b) The Sticks
    The carrots are unlikely to work without effective sticks--
military, economic, and legal.
    Military Stick: MONUC should work with the Congolese army to 
develop a military strategy to attack FDLR who refuse demobilization.
    Military Stick: MONUC should enhance its special forces capacities 
to carry out offensive operations, should they become necessary, in 
close coordination with Congolese forces.
    Counterinsurgency operations are inevitably fraught with 
significant risk, and military action against the FDLR must only be 
used as a last resort. ENOUGH interviews with former militia found vast 
divisions over the efficacy of military attacks, but a credible 
military threat must remain on the table to create leverage for 
effective DDR.
    There is much debate over the military strategy to deal with the 
FDLR, but the best option remains MONUC supporting Congolese army 
brigades (though not including Nkunda's ``mixed'' brigades) against the 
FDLR. However, the Congolese army is too weak to take the lead and 
MONUC lacks both the capacity and the will to engage in 
counterinsurgency operations that could result in civilian casualties. 
Regardless of who takes the lead, MONUC must develop a more coherent 
strategy than we have seen in the past. There must be safe areas 
established for would-be FDLR defectors as military operations are 
launched against FDLR positions. MONUC must also establish a presence 
closer to those positions to facilitate such defections. And escapees 
who flee to MONUC centers must be transferred out quickly to present a 
credible and safe-escape strategy.
    Economic Stick: The U.N. Security Council should target the 
international support network for the FDLR by enforcing targeted 
sanctions against its diaspora leaders and others who violate the U.N. 
arms embargo.
    Legal Stick: MONUC, the European Union, and capable states should 
collect data on new crimes against humanity to support prosecutions 
through the ICC.
                               conclusion
What the U.S. Can Contribute
    The United States should become more involved in eastern Congo now 
for four principal reasons.
    First, the resumption of full-scale war in eastern Congo will 
catapult that region back to the top of the charts of human suffering. 
There is a humanitarian and moral imperative to prevent such a 
conflagration.
    Second, the United States is providing nearly a third of the budget 
of the largest U.N. peacekeeping operation in the world, and is paying 
for the bulk of a massive relief operation. It is time to start 
investing in solutions rather than just the maintenance of an unstable 
status quo.
    Third, consistent with the U.S. national security strategy, it is 
critioal to not leave huge swathes of mineral-rich territory largely 
ungoverned and unstable. Terrorist organizations have a history of 
laundering money in the mineral sectors of such unstable regions.
    Fourth, the United States has growing economic interests across 
Africa, and Congo has the potential to be a turbocharged engine for 
economic growth across the entire continent. Diplomatic and economic 
investment in ending conflict in eastern Congo and helping the 
Congolese people build effective institutions would have a positive 
ripple effect on security and economic growth in the region.
    But all of this is nothing new. Despite massive investment and 
international assistance, Congo's unrealized economic potential has 
gone unfulfilled for decades, and Congolese will not soon forget the 
unqualified and unconditional U.S. support for one of Africa's worst 
ever heads of state, the corrupt cold war dictator Mobutu Sese Seko.
    The U.S. government can help Congo escape the conflict trap and 
secure U.S. interests there (and across the continent) by taking a 
greater role in diplomacy to resolve the crisis in the East, providing 
more funding and technical assistance in DDR and SSR, maintaining 
strong support for MONUC, and increasing humanitarian assistance.\9\ As 
is the case with Darfur and northern Uganda, U.S. citizens who care 
about ending crimes against humanity must be the catalyst to press 
policymakers to take urgent action.
---------------------------------------------------------------------------
    \9\ In its budget request to Congress for 2008, the Bush 
administration asked for $80.2 million in foreign assistance to the 
Congo, $10 million less than the United States spent in 2006. Nearly 
half of this funding--$39.9 million--is for humanitarian assistance 
programs, while only $6.6 million is for a small military training 
program, with nothing given to support critical DDR programs that help 
prevent conflict from reigniting. Humanitarian aid is essential to deal 
with the immediate needs of Congolese, but humantarian band-aids do not 
and will not address the root causes of their suffering.
---------------------------------------------------------------------------
                                 ______
                                 
                       two acronyms--ssr and ddr
    Two acronyms familiar only in international diplomatic parlance are 
crucial to ending crimes against humanity in eastern Congo: DDR and 
SSR. Disarmament, demobilization and reintegration (DDR) of combatants 
is important after any war, to help turn former fighters into 
productive members of society. In Congo, it is a matter of life and 
death. And when the military and police represent a grave threat to the 
civilians they are supposed to protect, as they do in Congo, Security 
Sector Reform (SSR)--restructuring and training the military and police 
to more effectively secure the country--is fundamental to improving 
human security.
    A major international role--in funding, monitoring, and 
evaluation--is a prerequisite for successful DDR and SSR. Thus far, the 
United States has been a minor player in coordinating with other key 
actors to help Congo to meet these objectives.
                                 ______
                                 
                     a daily struggle in north kivu
    In February ENOUGH visited an IDP camp near Rutshuru in North Kivu 
that is a microcosm of the under-the-radar violence that marks today's 
post-election eastern Congo. The residents of the camp, mostly 
Congolese Hutus, had been there for nine months. The FDLR had occupied 
the area around their village of Binza. They had uneasily coexisted 
with village residents, occasionally coming into the village to 
forcibly take some of the young girls away to be their "wives." Thirty 
girls had been taken over the last couple of years.
    The government army had attacked the area, failed to dislodge the 
FDLR, and then taken vengeance on the local population. Government 
forces accused villagers of collaborating with the FDLR and burned down 
their houses. Adding insult to injury, the FDLR then occupied the 
houses that remained standing.
    The villagers could not return home, they had not received food 
from international agencies since October, and people were dying.
    One 46-year-old woman lost two of her seven children during this 
attack. Her house was burned down by the Congolese army, and her fields 
have turned to bush. She had five goats and 16 chickens, but the 
Congolese army looted everything she owned.
    ``Some days we go without food,'' she said matter-of-factly. ``Many 
of the women here have been raped.'' First they get raped by the FDLR, 
and then they are raped by the Congolese army, the force that is 
supposed to protect them from the FDLR. She earns 70 cents a day 
working other peoples' fields, not remotely enough to feed her family. 
``Peace is the only solution,'' she concluded.

                                  <all>

</pre></body></html>
